<html>
<title> - IS EPA LEADERSHIP OBSTRUCTING ITS OWN INSPECTOR GENERAL?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
        IS EPA LEADERSHIP OBSTRUCTING ITS OWN INSPECTOR GENERAL?

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 7, 2014

                               __________

                           Serial No. 113-124

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
89-593                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8aedfae5cae9fff9fee2efe6faa4e9e5e7a4">[email&#160;protected]</a>  


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        Vacancy
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 7, 2014......................................     1

                               WITNESSES

Mr. Patrick Sullivan, Assistant Inspector General for 
  Investigations, Office of Inspector General, U.S. Environmental 
  Protection Agency
    Oral Statement...............................................     6
    Written Statement............................................     8
Mr. Allan Williams, Deputy Assistant Inspector General for 
  Investigations, Office of Inspector General, U.S. Environmental 
  Protection Agency
    Oral Statement...............................................    17
    Written Statement............................................    19
Ms. Elisabeth Heller Drake, Special Agent, Office of 
  Investigations, Office of Inspector General, U.S. Environmental 
  Protection Agency
    Oral Statement...............................................    23
    Written Statement............................................    26
The Hon. Bob Perciasepe, Deputy Administrator, U.S. Environmental 
  Protection Agency
    Oral Statement...............................................    33
    Written Statement............................................    35

                                APPENDIX

Opening Statement of Rep. Elijah Cummings........................    78
Portions of The Inspector General Act of 1978, submitted by 
  Chairman Issa..................................................    80
Oct. 28, 2013 letter from Gina McCarthy, EPA Administrator, to 
  the EPA IG, submitted by Rep. Chaffetz.........................    83
Statement for the record by Rep. McHenry.........................    84


        IS EPA LEADERSHIP OBSTRUCTING ITS OWN INSPECTOR GENERAL?

                              ----------                              


                         Wednesday, May 7, 2014

                   House of Representatives
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 9:33 a.m., in Room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
[chairman of the committee] presiding.
    Present: Representatives Issa, Mica, Turner, Duncan, 
Jordan, Chaffetz, Walberg, Amash, Gosar, Woodall, Meadows, 
Bentivolio, DeSantis, Cummings, Maloney, Norton, Tierney, 
Connolly, Cardenas, Lujan Grisham, and Kelly.
    Staff Present: Molly Boyl, Majority Deputy General Counsel 
and Parliamentarian; Lawrence J. Brady, Majority Staff 
Director; Joseph A. Brazauskas, Majority Counsel; David Brewer, 
Majority Senior Counsel; Caitlin Carroll, Majority Press 
Secretary; Sharon Casey, Majority Senior Assistant Clerk; Drew 
Colliatie, Majority Professional Staff Member; John Cuaderes, 
Majority Deputy Staff Director; Adam P. Fromm, Majority 
Director of Member Services and Committee Operations; Linda 
Good, Majority Chief Clerk; Tyler Grimm, Majority Senior 
Professional Staff Member; Ryan M. Hambleton, Majority Senior 
Professional Staff Member; Christopher Hixon, Majority Chief 
Counsel for Oversight; Michael R. Kiko, Majority Legislative 
Assistant; Mark D. Marin, Majority Deputy Staff Director for 
Oversight; Matt Mulder, Majority Counsel; Jeffrey Post, 
Majority Senior Professional Staff Member; Andrew Rezendes, 
Majority Counsel; Katy Rother, Majority Counsel; Laura L. Rush, 
Majority Deputy Chief Clerk; Jessica Seale, Majority Digital 
Director; Andrew Sult, Majority Press; Peter Warren, Majority 
Legislative Policy Director; Rebecca Watkins, Majority 
Communications Director; Jaron Bourke, Minority Director of 
Administration; Lena Chang, Minority Counsel; Devon Hill, 
Minority Research Assistant; Julia Krieger, Minority New Media 
Press Secretary; Elisa LaNier, Minority Director of Operations; 
Mark Stephenson, Minority Director of Legislation; and Katie 
Teleky, Minority Staff Assistant.
    Chairman Issa. The committee will come to order. Without 
objection, the chair is authorized to declare a recess of the 
committee at any time.
    The Oversight Committee exists to secure two fundamental 
principles: first, Americans have a right to know that the 
money Washington takes from them is well spent and, second, 
Americans deserve an efficient, effective Government that works 
for them. Our duty on the Oversight and Government Reform 
Committee is to protect these rights. Our solemn responsibility 
is to hold Government accountable to taxpayers, because 
taxpayers have a right to know what they get from their 
Government. It is our job to work tirelessly in partnership 
with our inspectors general and citizen watchdogs to deliver 
the facts to the American people and bring genuine reform to 
the Federal bureaucracy. This is our mission, this is our 
calling, and this is my passion.
    Today's hearing is about restoring the American people's 
trust in an agency that has developed a well-earned reputation 
for waste and mismanagement of taxpayers' funds.
    The Environmental Protection Agency is one of the most 
powerful and far-reaching agencies, but it has offered too 
little accountability for how its employees are using their 
time, taxpayers' money, and, in fact, often abusing the 
American people by extending and expanding their jurisdiction.
    We are not here today to talk about the overreach of 
policies of the EPA. Inventing from thin air regulations that 
don't exist, proactively abusing citizens trying to create 
wealth in this Country through mining, manufacturing, and 
agriculture. If only we could.
    Today we are here because there is a terrifying truth at 
the EPA, which is responsible for regulations governing such a 
large percentage of our economy. The fact that it lacks 
internal controls to prevent even the most basic fraud and 
abuse. For example, in October the committee held a hearing 
about fraud perpetrated by John Beale, a senior level EPA 
employee who worked directly for the now Administrator Gina 
McCarthy. Beale is claimed to have masqueraded as a CIA 
employee in order to steal time, money, and travel, and even a 
handicapped parking space from the Federal Government. The 
disguise would have been uncovered by anyone who was looking 
for someone abusing the trust of the American people.
    Beale's scam went on far more than 10 years without anyone 
at the EPA catching on. Even the bold-faced lies, the most 
outrageous were not detected. Americans were so shocked that 
even The Daily Show with Jon Stewart referred to Beale's scam 
as a web. Stewart's questioned how Beale could fool so many 
people at the EPA for so long, and I would too except for what 
we are going to hear today, because today we are going to 
understand that John Beale's behavior did not happen in a 
vacuum. In fact, it was just the tip of EPA's fraudulent 
iceberg.
    This morning we will hear more stories from EPA that will 
appall and bewilder the American people. It is hard to shock 
the American people about waste, fraud, and abuse in 
Government, but I believe we will achieve that today. For 
example, one senior level EPA employee sold jewelry, 
pocketbooks, and weight loss products out of her office. She 
hired friends and even her own daughter, and paid for 
internships and steered bonuses toward her own daughter, also 
an EPA employee who she thinly veiled was coming from another 
part not under her control, under the anti-nepotism law, 
except, as you will hear today, the bonus came from her budget.
    But instead of being reprimanded, she received the highly 
prestigious Presidential Rank Award and $35,000 in special 
bonus. A senior manager, this woman, this mother of a child who 
was unlawfully and unreasonably hired and bonused by her own 
mother, is still at the EPA and is an employee today.
    Another woman began working from home 20 years ago because 
of her multiple sclerosis. But she stopped producing any 
product more than five years ago. She didn't even access her 
emails. But her supervisors fraudulently kept signing off on 
her time cards, so she kept getting paid. Over the past year, 
she has been paid roughly $600,000. But that's not enough for 
the EPA. She received a performance award during this time.
    The EPA is an organization in which you can get a special 
award for not working at all.
    Our sympathies go out to someone suffering from an awful 
disease. They should be taken care of, and the Government has 
programs to do so. But fraudulently claiming the person is at 
work and bonusing them is a crime, a crime that doesn't get 
punished at all at the EPA, not by criminal prosecution and 
certainly not by termination.
    Then there is a GS-15 EPA employee who kept receiving 
normal paychecks for one to two years after moving into a 
retirement home. We are talking nursing home here, folks, not 
one of those places where you golf every day. From the nursing 
home, even though he did not work during any of that time, he 
continued to receive pay; again, falsified documents. His 
bosses knew it. When the IG began its investigation, his 
supervisor simply placed him on sick leave. One crime followed 
by another coverup.
    Today we will also hear about Beth Craig. She is a Deputy 
Assistant Administrator in the Office of Air and Radiation who 
is still working at the EPA even though the IG found she 
exercised a severe lack of due diligence by signing off, yes, 
on CIA Agent Mr. Beale's travel.
    Furthermore, John Beale's abuse of retention bonuses--and I 
want everyone to understand retention bonuses are supposed to 
be uniquely paid for somebody that has to be kept that would 
otherwise retire--abuse of retention bonuses that he did not 
deserve prompted the EPA IG to launch, as you might imagine, an 
audit, which found John Beale was not the only offender. Over 
the last eight years, EPA paid retention bonuses to 13 
additional employees which totaled more than $660,000. In 11 of 
the 13 cases, the EPA made unauthorized payments which cost 
more than $481,000.
    Additionally, in the wake of Mr. Beale's fraudulent travel, 
EPA IG looked into passport controls at EPA for the use of 
official passports. And, for the American people, these are 
second passports; they are not the blue ones that Americans can 
carry, these are ones that identify someone as official 
Government employees on official duty and they are a different 
color, they are red. The review found that out of 417 official 
passports belonging to the EPA, 199 could not be located.
    This is truly a broken agency. We know about these issues 
because of the tenacity and the hard work of our inspector 
general and his staff.
    Today's hearing is even more important because EPA 
leadership has engaged in an effort to keep the IG from doing 
its job. The Office of Homeland Security, a small organization, 
not the big Homeland Security, a small one within EPA, has been 
obstructing the inspector general's work. In fact, one of our 
witnesses today was verbally assaulted by an employee of the 
Office of Homeland Security while simply trying to get him to 
sign a perfunctory form.
    Until the Office of Inspector General is allowed to do 
their job to the extent authorized and mandated under the IG 
Act, we will never know more about John Beale and cases like 
that.
    I didn't pull any punches today, but there is a lot more 
material that could have been included. The EPA has a long 
history that now has become intolerable to the American people. 
As I said in the first part of my opening statement, the abuses 
of the EPA that are policy driven are not the subject today, 
although they are real. But the waste, fraud, and abuse, the 
criminal conduct, and the fact that its senior management 
obviously is part of that activity is now intolerable.
    With that, I recognize the ranking member for his opening 
statement.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    The EPA Office of Inspector General has expressed serious 
concerns that deserve serious attention by this committee so as 
we might be effective and efficient. The IG asserts that 
information he considers relevant to his mission is being 
withheld by the EPA. The IG also believes that the EPA's Office 
of Homeland Security is engaged in investigations that exceeds 
its authority. Those disputes do happen. They even happen here 
on Capitol Hill.
    These concerns are symptoms of a jurisdictional dispute 
caused by difference in interpretation of two statutes, the 
Inspector General Act of 1978 and the Intelligence 
Authorization Act for Fiscal Year 1995.
    Under the Inspector General Act, the IG has broad authority 
to investigate cases of employee misconduct. Yet, Federal 
courts have ruled that this authority maybe limited in certain 
cases involving national security. In addition, under the 
Intelligence Authorization Act, and various presidential 
executive orders and directives, the EPA has certain national 
security responsibilities to refer cases to the Federal Bureau 
of Investigation.
    The dispute lies at the intersection of these two laws. The 
two offices do not agree on what role the IG should play in 
these cases or what obligations the EPA has to keep the IG 
informed of actions relating to referrals made to the FBI. 
Passions have run high during this dispute, and even resulted 
in an altercation between special agents of the IG and the 
staff of the Office of Homeland Security. That is most 
unfortunate.
    There are several ways to resolve this issue. One way is to 
wait for a Federal court to decide the matter. Another way is 
for Congress to enact new legislation. Both these options will 
take a long time and cooperation between the EPA, the IG, and 
the FBI will suffer in the meantime and the people will not be 
properly served.
    A better way is to find a practical solution that will 
allow all parties to win. I believe this committee can do that 
by helping them craft a plan that will clarify their roles and 
responsibilities, require the most information sharing 
possible, and ensure better cooperation going forward.
    In preparation for today's hearing, I asked my staff to 
work with all the parties to help find a solution. My staff 
spent many hours discussing the issues with various 
stakeholders, trying to find not only common ground, but higher 
ground. Based on my staff's discussions with the parties, I 
believe there are significant areas of agreement, and I would 
like to confirm this progress here today, again, so that we 
might be effective and efficient in what we are trying to do.
    First, I believe all parties agree that the FBI, as the 
lead agency for national security investigations, should be 
directly involved in the discussion to resolve their concerns. 
Second, if the FBI is not leading an investigation into 
employee misconduct, it is properly the lead role of the IG, 
and not the EPA's Office of Homeland Security. Third, the 
Office of Homeland Security has an intelligence support 
function to perform, including intelligence analysis. And, 
fourth, better information sharing between the EPA and the IG 
will help ensure that the de-confliction occurs, which will 
protect investigations from being compromised or agents from 
being endangered.
    Those are areas of agreement that I think we have already 
achieved. If you all can confirm those today, I believe we will 
have a strong foundation for positive resolution. I was also 
pleased to hear that yesterday senior leadership of the EPA and 
the IG, as well as the FBI, scheduled a meeting next week to 
work towards a resolution of this dispute. Again, this is an 
effort to get it done, to resolve the issue. I believe that all 
the parties involved here are hardworking Federal employees 
that simply want to do their job in an effective and efficient 
manner, and we should be about the business of trying to help 
them do that.
    With that, I yield back.
    Chairman Issa. I thank the gentleman.
    At this time I would ask unanimous consent that the 
portions of the Inspector General Act of 1978 which state and 
list the agencies that are allowed to have exemptions, which 
are the Department of Defense, Homeland Security, Justice, 
Treasury, plus the United States Postal Service and Federal 
Reserve, noting that the creation of Homeland Security Act was 
what created that exemption afterwards.
    Members may have seven days in which to submit opening 
statements for the record.
    We are now pleased to welcome our panel of witnesses.
    Mr. Patrick Sullivan is the Assistant Inspector General for 
Investigations for the Office of Inspector General at the EPA.
    Mr. Allan Williams is the Deputy Assistant Inspector 
General for OIG, Office of Inspector General, at the EPA.
    Ms. Elisabeth Heller is the Special Agent at the Office of 
Investigations at the Office of Inspector General at the EPA. 
She is here today to provide testimony as a private citizen, 
although I am going to codify that by saying her experience 
well in fact as an agent that she then was put through is also 
part of her testimony.
    The Honorable Robert Perciasepe is the Deputy Administrator 
at the EPA, and we welcome you for being here.
    Pursuant to the rules, all witnesses are to be sworn. Would 
you please rise to take the oath and raise your right hand?
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    [Witnesses respond in the affirmative.]
    Chairman Issa. Please be seated.
    Let the record reflect that all witnesses answered in the 
affirmative.
    Three out of the four of you are, quite frankly, career 
opening statement people, it is part of your job. Ms. Heller, I 
know that yours is a little less scripted and organized. For 
that reason, I would ask that you all remain as close as you 
can to five minutes. Ms. Heller, if you need a little bit more 
time, you will be granted it.
    With that, Mr. Sullivan, you are recognized.

                       WITNESS STATEMENTS

                 STATEMENT OF PATRICK SULLIVAN

    Mr. Sullivan. Good morning, Chairman Issa, Ranking Member 
Cummings, members of the committee. I am Patrick Sullivan, 
Assistant Inspector General for Investigations at EPA. Thank 
you for inviting me to testify.
    We are here today because the EPA OIG's Office of 
Investigations is being impeded from fulfilling its 
responsibilities by actions of the EPA's internal Office of 
Homeland Security, also known as OHS, a unit within the Office 
of the Administrator.
    As I testified before you in October on the John Beale 
case, prior to EPA officials contacting the OIG about the 
situation involving Mr. Beale, OHS conducted its own 
investigation. The OHS actions, which included several 
interviews with Mr. Beale, delayed and damaged the OIG's 
subsequent investigation.
    I would like to go on record today and state that as the 
official in charge of internal investigations at the EPA, I am 
very concerned that vital information regarding suspected 
employee misconduct is being withheld from the OIG. Because OHS 
continues to block my office's access to information essential 
to the OIG's work, I cannot assure the committee that we are 
doing everything possible to root out other John Beales who may 
be at the EPA or uncover other malfeasance of a similar 
magnitude. I believe that the current situation represents a 
significant liability for the EPA, the Congress, and the 
American taxpayers. In short, the actions of OHS violate the IG 
Act, the very legislation that Congress passed to ensure 
Federal agencies have oversight.
    The EPA OIG was created pursuant to the IG Act and thereby 
has statutory authority to conduct investigations of employee 
misconduct, threats against EPA personnel and facilities, and 
intrusions into EPA computer networks and systems. Pursuant to 
the attorney general's guidelines for OIGs with statutory law 
enforcement authority, the EPA and the FBI share concurrent 
jurisdiction for agency-related cases.
    OHS serves as the Agency's central liaison for homeland 
security matters. The OHS has no law enforcement or 
investigative authority. The most critical concern for the OIG 
is the safety and security of all EPA employees, facilities, 
and assets. The OIG's ability to investigate threats against 
EPA employees and facilities has been impeded due to OHS's 
total and systematic refusal to share threat information.
    In investigating threats, timely access to all available 
information is critical. OHS's stance places my special agents 
at unnecessary risk. Most important, the withholding of threat 
information from the OIG also places all EPA employees and 
facilities at risk. This practice is not only unacceptable; it 
is dangerous.
    The current situation with OHS harks back to the days 
before 9/11 when U.S. Government entities often did not 
communicate effectively or at all, contributing to the most 
horrific terrorist attack ever on U.S. soil. No single entity 
can accomplish its work in a vacuum; we must work together.
    In response to denying the OIG's repeated request for 
information and cooperation, OHS has invoked the term 
``national security'' as its mantra. This formidable cloak does 
not justify OHS's insistence on filtering information germane 
to the OIG's jurisdiction, whether classified or not. OHS does 
not have authority to make such a call. Agency management, let 
alone a small shop like OHS buried inside the Agency, has no 
power whatsoever to tell the OIG what it needs to know. It is 
actually the reverse. Under the IG Act, the OIG has access to 
the entirety of information available to the Agency, and it is 
the IG who determines what information it needs to know.
    In fact, EPA's own Office of Environmental Compliance and 
Assurance issued a legal opinion holding that OHS lacks both 
statutory law enforcement authority and the authority to assign 
an EPA Criminal Investigations Division special agent to work 
as a criminal investigator within OHS. This special agent, who 
carries a gun and a badge, routinely conducts national security 
and misconduct investigations for OHS.
    Over the past few months, I discussed this situation with 
many of my fellow assistant inspectors general for 
investigation in the Federal OIG community. I learned that the 
situation I face at EPA is an anomaly. Most of my counterparts 
advised me that their Offices of Investigation would either 
directly participate with the FBI in any such national security 
related investigation targeting an employee or they would be 
fully informed about the investigation for coordination and de-
confliction purposes. In addition, the use of non-disclosure 
agreements by an internal entity such as OHS to prevent 
employees from speaking to the OIG would not be tolerated.
    In summary, we need Congress's help in rectifying the 
situation. The OHS's refusal to share information must be 
addressed and corrected immediately.
    Mr. Chairman, this concludes my prepared statement.
    [Prepared statement of Mr. Sullivan follows:]

    [GRAPHIC] [TIFF OMITTED] T9593.001
    
    [GRAPHIC] [TIFF OMITTED] T9593.002
    
    [GRAPHIC] [TIFF OMITTED] T9593.003
    
    [GRAPHIC] [TIFF OMITTED] T9593.004
    
    [GRAPHIC] [TIFF OMITTED] T9593.005
    
    [GRAPHIC] [TIFF OMITTED] T9593.006
    
    [GRAPHIC] [TIFF OMITTED] T9593.007
    
    [GRAPHIC] [TIFF OMITTED] T9593.008
    
    [GRAPHIC] [TIFF OMITTED] T9593.009
    
    Chairman Issa. Thank you.
    Mr. Williams.

                  STATEMENT OF ALLAN WILLIAMS

    Mr. Williams. Good morning, Chairman Issa, Ranking Member 
Cummings, and members of the committee. I am Allan Williams, 
Deputy Assistant Inspector General for the U.S. Environmental 
Protection Agency. Thank you for inviting me to appear before 
you today to discuss our investigations of employee misconduct 
involving time and attendance fraud.
    The Office of Inspector General is an independent entity 
within EPA; therefore, the views expressed in my testimony are 
based on the findings of the OIG's work and are not intended to 
reflect the views of the Agency.
    The OIG's successful investigation of John Beale was the 
subject of a hearing held by this committee on October 1st, 
2013. On December 18th, 2013, Mr. Beale was sentenced to 32 
months in prison for defrauding EPA of approximately $900,000 
in undeserved pay and bonuses. Our investigation found, among 
other things, that Mr. Beale received his salary while missing 
more than two and a half years of work with EPA, making this 
case one of the most notorious time and attendance fraud cases 
in the Federal Government.
    My role here today is to inform the committee about 
findings from several time and attendance investigations both 
related and unrelated to Beale.
    First, the OIG investigated an allegation of serious 
employee misconduct by an EPA senior executive alleged to have 
been directly involved in approving fraudulent time and 
attendance records and travel vouchers for Mr. Beale. Our 
investigation was able to substantiate that this senior 
executive did not exercise due diligence with respect to the 
authorization and approval of Mr. Beale's time and attendance 
records, travel authorizations, and travel vouchers. The 
investigation also revealed that the senior executive did not 
exercise due diligence in part because she believed Mr. Beale 
worked for the Central Intelligence Agency. She never 
questioned Mr. Beale; consequently, she authorized and approved 
fraudulent time and attendance records and travel vouchers in 
excess of $180,000.
    Similarly, the OIG conducted an investigation into serious 
misconduct by another EPA manager who allowed an employee to 
stay at home and not report for duty for several years. Based 
on a longstanding arrangement with the employee, which 
allegedly began as an accommodation to work at home due to a 
medical condition, this manager not only entered fraudulent 
time and attendance records for the absent employee, but also 
approved the same records. It is estimated that the manager's 
approval of fraudulent time and attendance records cost the 
Government more than $500,000. What is even more egregious is 
that the EPA manager authored and approved exemplary 
performance appraisals that resulted in a cash award for the 
absent employee.
    During the same investigation, the OIG found evidence that 
implicated an EPA executive. This executive, who was the absent 
employee's prior supervisor, remained aware the employee had 
been in a telework status for more than 20 years with very 
little substantive work product to show during this time. The 
executive took no action, even though he knew the EPA was being 
defrauded. Upon receiving a target letter from the U.S. 
Department of Justice, the executive retired and was not 
prosecuted. Furthermore, the Department of Justice declined to 
prosecute either the absent employee or the current supervisor.
    In addition to those cases, the OIG has several ongoing 
investigations involving employees and alleged serious 
misconduct. One of the investigations involves a career 
employee who has allegedly stored pornographic materials on an 
EPA network server. When an OIG special agent arrived at the 
employee's workplace to conduct an interview, the special agent 
witnessed the employee actively viewing pornography on his 
Government-issued computer. Subsequently, the employee 
confessed to spending, on average, between two and six hours 
per day viewing pornography while at work. The OIG's 
investigation determined that the employee downloaded and 
viewed more than 7,000 pornographic files during duty hours. 
This investigation has been referred to and accepted by the 
Department of Justice for prosecution.
    Finally, the OIG has an ongoing investigation of a GS-15 
Step 10 EPA employee who has a debilitating disease and has not 
been physically able to complete any work for at least a year. 
However, this employee continues to draw a full salary and 
receive the benefits of an active employee. This employee has 
resided in an assisted living facility for more than a year, 
and the former supervisor was aware of the situation and the 
employee's condition. This investigation is ongoing and is yet 
to be presented to the Justice Department for prosecution.
    These are recent examples of OIG employees misconduct cases 
at the EPA. True deterrence of employee misconduct ultimately 
rests with the Agency's executives and managers to set a tone 
that ensures such behavior will not be condoned. By doing so, 
the Agency's leadership can establish a culture of 
accountability within the EPA and clearly communicate that 
employee misconduct will not be tolerated.
    Thank you, Mr. Chairman, for the opportunity to discuss 
some of our cases involving employee misconduct at the EPA. The 
OIG appreciates the committee's continued interest in our work. 
This concludes my testimony and I am pleased to answer any 
questions you may have.
    [Prepared statement of Mr. Williams follows:]

    [GRAPHIC] [TIFF OMITTED] T9593.010
    
    [GRAPHIC] [TIFF OMITTED] T9593.011
    
    [GRAPHIC] [TIFF OMITTED] T9593.012
    
    [GRAPHIC] [TIFF OMITTED] T9593.013
    
    Chairman Issa. Thank you.
    Ms. Heller.

              STATEMENT OF ELISABETH HELLER DRAKE

    Ms. Heller Drake. Chairman Issa, Ranking Member Cummings, 
and distinguished members of the Oversight Committee, thank you 
for inviting me to testify before you today. My name is 
Elisabeth Heller Drake and I am a Special gent in the 
Environmental Protection Agency's Office of Inspector General. 
I am testifying about what happened to me as a Federal law 
enforcement officer last fall and I appear before you 
voluntarily as an individual, and not on behalf of the Agency 
nor on behalf of the OIG. No one at EPA has pre-approved my 
statement.
    On Thursday, October 24th, 2013, Federal EPA OIG Special 
Agent Ryan Smith and I had a difficult interview with EPA 
Office of Homeland Security employee John Martin. We extended 
him the courtesy of having his personal attorney present, but 
he wouldn't answer even basic questions.
    He kept indicating he needed to be home to meet his 
children, so we ended in a timely fashion in spite of his lack 
of cooperation with our official investigation. Minutes after 
he left, I realized he left without the standard warning not to 
discuss the ongoing investigation with others and without 
signing the standard non-disclosure form.
    Agent Smith was escorting Martin's attorney out of the 
building and I was unable to reach her by phone, so I asked 
Special Agent Gary Don Dorman to go with me to the EPA Office 
of Homeland Security to notify Martin of his obligations.
    As we progressed into OHS's office suite, someone asked if 
Agent Dorman and I needed assistance, at which time I also 
overheard Mr. Martin's voice talking to someone about specific 
information discussed during our interview of him. Turning in 
the direction of his voice and looking down the hallway, I saw 
Mr. Martin standing in the open doorway of an office, talking 
to a woman I later learned was Nancy Dunham from EPA's Office 
of General Counsel. With them was someone I later realized was 
EPA Senior Intelligence Advisor Steven Williams.
    Mr. Martin approached Agent Dorman and me and asked what we 
wanted. I responded that we had a follow-up item to address 
with him that would only take an additional moment of his time. 
Mr. Martin seemed defensive and responded that he didn't want 
to discuss anything without his attorney present. I explained 
there was no intention to ask him additional questions, but we 
merely needed his attention for a quick aside. Following 
protocol, I was trying not to unnecessarily disclose the 
ongoing investigation to others in the area.
    Martin said anything I had to say to him could be said in 
front of all present. Keeping my composure, I informed him that 
he wasn't permitted to discuss details of his interview with 
anyone other than his personal attorney. Ms. Dunham and Mr. 
Williams shouted that my instructions weren't accurate, at 
which point it became clear Mr. Martin wasn't going to sign our 
standard non-disclosure form.
    I responded to Mr. Martin that I heard him talking about 
our interview when Agent Dorman and I entered the office space 
and that he needed to desist from that type of dialogue 
immediately. I repeated that Mr. Martin should only discuss the 
interview details with his personal counsel. As I made those 
statements, Ms. Dunham continued to yell from the hallway that 
I wasn't right.
    At this time, Mr. Williams aggressively approached me, 
yelling, ``Put it in writing!'' He stepped between me and Mr. 
Martin in a menacing way, again screaming to ``Put it in 
writing!'' and demanding to know where the standard protocol I 
was addressing was documented. Williams invaded my personal 
space, pointing and yelling to a degree that it became 
difficult to understand what he was saying. He repeatedly 
jabbed his finger at me merely inches from my chest and, as he 
got more aggressive, his complexion heated, his veins bulged, 
and he began to swear profusely.
    We are trained to deal with difficult circumstances; 
however, I was surprised at having this situation escalate so 
quickly in a professional setting over a request that was so 
standard and minor. If an individual had acted this way toward 
me as a Federal agent on the street, I might have arrested him. 
But it shocked me to be approached in this manner by what 
appeared to be a high-ranking EPA official.
    While Mr. Williams is not a large man, his inexplicable 
anger and aggressiveness in this professional office setting 
managed to leave me feeling intimidated. The fact I had a 
sidearm holstered out of sight under my suit jacket didn't make 
a difference. I wasn't chasing a criminal on the street, but, 
rather, in an environment where I would never have expected 
such behavior from a professional staff member.
    Avoiding unnecessary physical contact, I stepped back from 
Mr. Williams. I tried to de-escalate the incident by asking Mr. 
Williams to identify himself. Remaining professional and upon 
hearing his name, I responded, ``Mr. Williams, I am Special 
Agent Elisabeth Drake. It is so nice to meet you,'' and I put 
my hand out to shake his. He refused to shake my hand and 
instead responded, ``I don't want to know you.''
    In spite of my clear notice that I was a Federal law 
enforcement officer, he again started yelling at me. I thought 
back to my research and recalled that he wasn't only a GS-15, 
but he was also a Naval Reserves captain, making his tirade and 
interference with my official duties all the more surprising.
    In another effort to reduce the tension, I told Mr. 
Williams that I wasn't there to speak with him, at which point 
he screamed at Agent Dorman and me to get out of their office 
space. He continued to yell as we departed.
    Back at the office, we reported the assault to management, 
leading other agents to return to the Office of Homeland 
Security to investigate Mr. Martin. Martin had left. Ms. Dunham 
and Mr. Williams said they were too stressed to be interviewed.
    The case was turned over to the Federal Protective Service 
to investigate. They interviewed Agent Dorman and me, as well 
as the OHS staff member who had offered us assistance when we 
first arrived that evening of the 24th. FPS then prepared an 
affidavit in support of Mr. Williams' arrest for the D.C. 
offense known as intent to frighten assault, but the U.S. 
Attorney's Office decided to refer it back to EPA for handling 
through administrative action.
    Whether Mr. Williams attacked and intimidated me that 
evening because I am a female and so felt he could get away 
with it, and whether he has acted in a threatening manner 
towards other females in the workplace are questions for 
another time and place. I, instead, am here to relay what 
happened that night and EPA's response to it out of concern 
about OIG not being allowed to do its job.
    Was Mr. Williams put on paid administrative leave until a 
full inquiry could be completed? No. Was I allowed to resume 
the OIG investigation involving Office of Homeland Security 
staff? No. Did the administrator remind those involved of their 
duty to cooperate with the OIG? No. Have my attorney and I 
repeatedly asked, both in person and in writing, for the EPA to 
do such things? Yes. In fact, the only prompt concrete action 
taken by the EPA was to issue a stand-down memo days later that 
halted the OIG investigation until a plan could be developed 
and put in place to end ongoing conflicts between the EPA's 
Offices of Homeland Security and of the Inspector General.
    As my attorney and I told the administrator's staff, we 
know of no exemption in the law that says an agency head can 
halt an official OIG investigation so long as it is done to 
encourage investigators and their targets to get along better 
with each other. It is common in our line of work to remain 
professional in spite of conflict. It is not common for a GS-15 
official to interfere, then essentially be rewarded with an 
investigation being halted for what has been over six months.
    Mr. Chairman and Ranking Member Cummings, we are now more 
than six months out from the events of October 24th, yet I 
believe the investigation underway the day of the assault 
continues to go uninvestigated. If there were wrongdoings going 
on within EPA's OHS, as an OIG agent, I feel responsible to 
conclude my investigation and bring those issues forward. 
However, I find it equally as important to determine that if 
there were no wrongdoings within the office identified, to set 
the record straight in that regard as well.
    To be clear, I am not complaining about the actions of the 
EPA inspector general or his staff. They have been very 
supportive of my career, especially so during the difficult 
months since I was assaulted in the line of duty. I am also not 
out to harm EPA. On the contrary, it is because the 
Environmental Protection Agency's work is so important that the 
Agency must be given the best chance possible to succeed. That 
only can happen if there is a healthy, independent, and 
unobstructed OIG, an OIG whose agents can insist upon 
cooperation from the Agency's employees regardless of their 
seniority and regardless of the office that happens to be the 
one subject to our law enforcement authority on a given day.
    Thank you for your time, and I would be happy to answer any 
questions you may have for me.
    [Prepared statement of Ms. Heller Drake follows:]

    [GRAPHIC] [TIFF OMITTED] T9593.014
    
    [GRAPHIC] [TIFF OMITTED] T9593.015
    
    [GRAPHIC] [TIFF OMITTED] T9593.016
    
    [GRAPHIC] [TIFF OMITTED] T9593.017
    
    [GRAPHIC] [TIFF OMITTED] T9593.018
    
    [GRAPHIC] [TIFF OMITTED] T9593.019
    
    [GRAPHIC] [TIFF OMITTED] T9593.020
    
    Chairman Issa. Thank you.
    Mr. Perciasepe, your entire opening statement is in the 
record. Please feel free to include any answers to the 
testimony you have just heard.

           STATEMENT OF THE HONORABLE BOB PERCIASEPE

    Mr. Perciasepe. Thank you, Mr. Chairman. Given I have 
slight cold, I may have to cough and take a sip every once in a 
while here.
    Chairman Issa. Coughing is fully authorized.
    Mr. Perciasepe. Fully authorized? Then I appreciate that.
    [Laughter.]
    Mr. Perciasepe. Let me go through my written statement, and 
maybe I will add a few comments, but I am sure we will get into 
it in the questions and answers, as I do want to be able to 
respond and explain what we are doing to deal with some of 
these issues that have come up here. Far be it for us to be in 
a situation where we do not want to have a problem with the 
IGS' access to whatever they need to have in the Agency. That 
is our position, that is Gina McCarthy's position, and I want 
to assure the committee of that.
    That goal is paramount for us. Having an independent and 
healthy IG is what we need to be able to deal with some of the 
issues you have in any large institution to make sure we are 
dealing with waste, fraud, and abuse, and we see the inspector 
general as a partner in that. In fact, since 2009, employees of 
the EPA have provided their information, their knowledge, and 
their support to over 2,600 audits, investigations, and actions 
of the Office of the Inspector General. I want you to keep that 
context in mind. Many of these identified in-house actions that 
have persisted for a long time in the Agency and require a 
systemic improvement in management systems in the Agency, and 
we have stepped up to meet those challenges in remedying them.
    Agency employees routinely work cooperatively to provide 
information to the inspector general to ensure their important 
work is achieved. That has always been not only our policy, but 
our culture.
    Unfortunately, these questions that are being raised about 
that commitment in light of some of these instances are not the 
norm. The vast majority of the work we do with the IG is done 
efficiently, appropriately, and with good result. And I can 
assure the committee that EPA remains committed to ensuring 
that our Office of Inspector General is successful in its 
efforts to root out waste, fraud, and abuse in every program 
across the agency, without exception.
    I was last before this committee, as you have mentioned, in 
the fall, to talk about the criminal fraud of John Beale, and 
all of us at the Agency, and I want everyone to know this, are 
profoundly offended by the actions of Mr. Beale. But I want you 
also to know that the Agency has risen to the occasion to that 
massive fraud with steady action to make improvements.
    In December of 2013, we released a 19-page report on 
evaluation and corrective actions we have already started to 
take that I testified to when I was before the committee in 
October. That document evaluated each of the aspects of Mr. 
Beale's conduct, how Mr. Beale evaded the Agency's existing 
controls, and the Agency's planned corrective actions. Since 
that time, we have taken steps to put measures in place to help 
ensure that this type of fraud cannot be repeated.
    In April we completed a second review of the issues raised 
by the case entitled ``Report on Internal Control Assessments 
of EPA's Sensitive Payment Areas.'' This 50-page report uses 
the assessment processes outlined by the Government 
Accountability Office's Standards for Internal Control of 
Federal Government to analyze seven key areas: executive 
payroll approvals, employee departures, statutory pay limits, 
parking and transit subsidy, retention incentives, travel 
reimbursements above per diem rate, and executive travel 
approval. That report was also provided to the Office of 
Inspector General on April 17th of this year.
    While undertaking our review, if you recall at my hearing 
with you, I said we are anxious and continue to work directly 
with the IG on their ongoing administrative reviews of issues 
that came up in the Beale matter. We also were not going to 
wait, because we didn't want anything else to happen, so we 
started working on it as well. So we are working in parallel 
and in tandem in a very cooperative way, and we have provided 
the Office of Inspector General with any necessary assistance 
in their ongoing audits related to this matter. Indeed, to 
ensure swift response to their needs, the EPA has requested, 
and the IG has agreed, to biweekly meetings between the IG and 
all of our senior managers that are related to the programs 
that are involved. These meetings are attended by senior 
officials from every office and they are designed to make sure 
that nothing falls through the cracks as we are working 
together.
    In over a decade of service at EPA, I am not aware of 
another instance where we have committed this level of senior 
level involvement in a single audit and set of reviews by the 
Office of Inspector General. In fact, there will be a series of 
audits; some have started to come out. So we are looking 
forward to receiving them, as I said before, and working with 
them, but we are also doing our own work at the same time so we 
can stay ahead of the curve and bring all of it together to 
continue to improve our management processes.
    Finally, I just want to take this opportunity to recognize 
that the overwhelming majority of hardworking 16,000 EPA 
employees are dedicated, hardworking, professional, and public 
servants, a point of which I know the inspector general agrees. 
I am very proud of them and I am very proud of EPA's 
achievements in protecting human health and the environment, 
and they also protect the American people. Employees work every 
day to make those achievements possible and we work every day, 
every day on numerous projects, reviews, and audits with the 
Office of Inspector General in a cooperative, productive, and 
appropriate manner.
    I look forward to answering any of the questions you have.
    [Prepared statement of Mr. Perciasepe follows:]

    [GRAPHIC] [TIFF OMITTED] T9593.021
    
    [GRAPHIC] [TIFF OMITTED] T9593.022
    
    [GRAPHIC] [TIFF OMITTED] T9593.023
    
    Chairman Issa. Thank you.
    It is now my pleasure to recognize a distinguished panel of 
members of the Army War College, in spite of the various 
uniforms. But you will notice that there are more Army uniforms 
there. They are here to observe the workings of Congress. Let's 
try not to disappoint them in any negative way.
    [Laughter.]
    Chairman Issa. For years Congressman Todd Platts 
represented the Carlyle Barracks, so I think they have had a 
tradition of coming here, and hopefully you will find this 
esteemed body not to disappoint you, depending upon your 
expectations.
    I will now recognize myself for a series of questions.
    Mr. Sullivan, let me understand something you said in your 
opening statement. This office, I understand 10 or so men and 
women office, is although statutorily authorized to exist and 
has existed, has no statutory authority to be a law enforcement 
organization.
    Mr. Sullivan. Mr. Chairman, I believe that the creation of 
the office was at the discretion of the administrator. I don't 
think there was any statutory requirement to have an Office of 
Homeland Security. But the second part of your statement is 
absolutely correct, they have no authority whatsoever to do law 
enforcement or investigative work.
    Chairman Issa. So unlike the uniformed service next to us 
who pack heat when they go into combat, these people have guns 
without any congressional requirement that they exist as a law 
enforcement entity in any way, shape, or form. How did they get 
those guns?
    Mr. Sullivan. Well, there is only one employee, to my 
knowledge, that has a firearm.
    Chairman Issa. He has a gun and a badge.
    Mr. Sullivan. Yes, he does.
    Chairman Issa. Who the heck came up with the badge? What 
does it look like?
    Mr. Sullivan. He has a badge that identifies him as a 
special agent in the EPA Criminal Investigations Division----
    Chairman Issa. So they made up their own badge----
    Mr. Sullivan. No, sir.
    Chairman Issa.--and authorization?
    Mr. Sullivan. No, sir. He was employed by the EPA Criminal 
Investigations Division and he was transferred to the Office of 
Homeland Security. Now----
    Chairman Issa. So he shows a gun and a badge from a 
different part that he is not actually part of.
    Mr. Sullivan. Yes.
    Chairman Issa. What is that gentleman's name?
    Mr. Sullivan. His name is John Martin.
    Chairman Issa. Okay, so John Martin. We have heard about 
him before.
    Mr. Sullivan. Yes.
    Chairman Issa. I am sure we will get back to that in a 
moment.
    Mr. Perciasepe, you were here before and we asked you about 
retention bonuses, and you failed to note that these other ones 
had existed. I understand they were dropped just before the 
hearing. I am disappointed that you wouldn't have been more 
forthcoming. But I have other questions today.
    Quite frankly, how much pornography would it take for an 
EPA employee to lose their job? We have just heard from Mr. 
Williams that you know, and have known, that somebody is 
searching 600 sites in a four-day period, thousands of them, 
putting pornography, perhaps illegal pornography, but certainly 
I didn't know there were 627 sites that somebody could surf in 
a four-day period, but apparently there are. You know that and 
that person is still on the job. Why? What does it take for you 
to take somebody off of a computer when you discover they are 
doing it, and actually when the IGs walk in and find it?
    Mr. Williams. First, let me say--I do want to say something 
about the----
    Chairman Issa. Well, answer how much pornography it takes 
to get fired at the agency first.
    Mr. Williams. We have a service that we employ in our 
computer system to block pornography.
    Chairman Issa. It is not working so well, is it?
    Mr. Williams. Well, the world out there stays ahead of it 
and we are always constantly trying to catch up. So I want the 
committee to understand that our first line of defense is to 
block things like pornography or gambling sites from coming in 
to the agency; and we do a pretty good job of that, but we have 
now discovered, with the help of the IG, that there is some 
other site that we hadn't had on that, and we are now in the 
process of working to block that.
    You know, I wish I could offer my thoughts on this, but 
this is going to go either to a court or it is going to have an 
administrative process and employees have----
    Chairman Issa. Is this employee still being paid? Is this 
employee still at work?
    Mr. Williams. I believe yes.
    Chairman Issa. Okay, enough said. I am sorry, that is not 
good enough for the American people.
    Mr. Williams. I can't answer on what my feelings are and 
what should happen because I am going to corrupt the integrity 
of the administrative processes, and then we will have even 
more trouble down the road. And I know you understand that and 
I know you----
    Chairman Issa. Okay, but according to what we have been 
told, for example, this individual spent four consecutive hours 
on a site called Sadism is Beautiful. I am going to tell you 
something. I am not real up on this. I have been out of the 
business world for a number of years, but I have a strong 
feeling that the House of Representatives figured out how to 
block sites with titles like that. It would shock me that they 
wouldn't. But it shocks me that you can tell us that you do a 
pretty good job and something as explicit as those key words, 
or Bears so Horny. I am not going to go into the other names, 
it disgusts me.
    You are running an organization in which nobody can be 
fired. I am just going to go through two quick questions. One, 
isn't it a crime to falsify records saying someone is working 
when they are not? Yes or no?
    Ms. Heller, isn't it a crime for someone to say that an 
employee is working when they are not, and get them paid for 
it, in your experience as an agent?
    Ms. Heller Drake. It would be fact-based, and I wouldn't--
--
    Chairman Issa. Mr. Williams, is it a crime to let someone 
get paid for not working at the EPA or in the Federal 
Government? Is it a crime to falsify documents saying somebody 
is in fact working when they are not working, and not even able 
to work?
    Mr. Williams. It can be prosecuted if DOJ deems it 
necessary to be prosecuted, or it could----
    Chairman Issa. I am not asking--if it can be prosecuted, 
then there is 18 U.S.C. There is a title that says it is a 
crime, right?
    Mr. Williams. For falsifying documents, it depends on the 
document that you are falsifying.
    Chairman Issa. Well, let me explain something. If you 
commit fraud and send money to somebody else in the private 
sector, you get sued, you get fired, and you usually get 
prosecuted, or at least your employer tries to. If you pay your 
daughter clandestinely a bonus with anti-nepotism laws that 
exist in the Federal Government, you do that in the private 
sector, you get prosecuted. So I am a little disappointed that 
we have to get into it is all fact-based. People defrauded the 
American people. They defrauded the American people and I am 
hearing, according to your IG, they are still on the job.
    Ms. Heller was attacked, assaulted, and six months later 
you still have a stand-down on the investigation that they were 
doing so that an agency that is not even authorized to be a law 
enforcement agency can continue doing investigations directly 
on behalf of the administrator. I am shocked. I am appalled. 
And this is why you are here. And, yes, you are going to be 
coming back to Congress for a long time because it is clear you 
are not cooperating with your own IG, you are blocking the IG's 
investigations. Your testimony is not credible. And I will give 
you an opportunity to respond to why you think you are credible 
when in fact you are not. Any time you want to respond.
    The ranking member is recognized.
    Mr. Williams. I appreciate you letting me respond. Let me 
just say, yes, things are fact-based, but it is a crime to 
falsify Federal documents. I mean, that is an established fact. 
How that crime is prosecuted, what happens, is all fact-based. 
So I just want to be clear I understand that, Mr. Chairman.
    On this incident, let me just say it is disturbing to me 
and I am upset that Agent Heller has the feelings of what 
happened at that evening. You should know, and it is not well 
publicized, that other employees in that office have filed 
hostile work environment complaints as well. So we haven't been 
doing nothing. We worked together with the inspector general, 
as Agent Heller identified in her testimony, with the Federal 
Protection Services, and when they suggested back to the IG 
that we handle this case administratively, both of us agreed, 
the inspector general and EPA management, that we would go to 
the Council of Inspectors General for Integrity and Efficiency, 
CIGIE it is called, to get a referral so that we could have an 
independent IG come in and look at only the issues surrounding 
that fact. That investigation is ongoing. The CIGIE selected, 
and we all agreed, to let the Department of Defense inspector 
general work on this case, and that is going on.
    I can't characterize that as being irresponsible. I can't 
characterize that as not doing anything. I characterize that as 
looking, first and foremost, and I want Agent Heller to know 
this, that Gina McCarthy and I, first and foremost, are 
concerned about the safety of our employees. I don't want to 
put employees in a situation where it is volatile. No matter 
how many directives I issue, I don't want employees in that 
position. So we need to let that investigation that is ongoing 
now complete, and then we will know how to move forward; and we 
will move forward expeditiously. We need to fix this situation 
and we need to have our employees be able to do their job, 
whether it is the IG, whether it is Agent Heller, or anyone 
else.
    Chairman Issa. I appreciate that. A woman was assaulted. A 
magistrate issued an arrest warrant. There was a decline to 
prosecute. He is still on the job, he is still assaulting 
people, he is creating a hostile environment, and you are 
working on it, and I appreciate that.
    Ranking member.
    Mr. Cummings. First of all, to Ms. Heller, I think one of 
the most alarming things that I have heard in being in Congress 
for 17 years is what you just described. Nobody should have to 
go through that, period, woman or man; and I am so sorry that 
that happened, and we have to do everything that we can to make 
sure that does not happen. That is not a part of your job 
description, to go through that kind of hell, and we are going 
to try to address that. It is very, very important to me and I 
am sure every member of this panel.
    Mr. Sullivan and Ms. Heller, you mentioned that the EPA 
administrator, Gina McCarthy--and I don't want to put words in 
your mouth, so correct me if I am wrong--requested that the OIG 
stand down on his investigation of OHS and the OHS special 
agent. Is that accurate, Mr. Sullivan?
    Mr. Sullivan. Yes, the investigation we were conducting was 
non-criminal, it was administrative. The investigation and the 
interview of Mr. Martin concerned his authority to act as a 
criminal investigator in the Office of Homeland Security. We 
had received a legal opinion from an attorney within the EPA 
Office of Environmental Compliance and Assurance that Mr. 
Martin was out of scope; in other words, he was liable 
personally for a Bivens action and the Agency was liable under 
the Federal Tort Claims Act because he was operating outside of 
the scope of his authority. That was the allegation and we were 
looking into Mr. Martin's authority to do what he was doing 
and, overall, the OHS's authority to be conducting 
investigations ostensibly within the purview of the OIG; why 
were they doing that.
    Mr. Cummings. Does the administrator to have the authority 
to step down an investigation? Where would that authority come 
from?
    Mr. Sullivan. Well, the administrator asked my boss, Mr. 
Elkins's concurrence to stand down temporarily until there was 
a potential resolution of the issue.
    Mr. Cummings. All right. But it would still have been the 
IG's. The IG said no. They could have gone on with the 
investigation?
    Mr. Sullivan. That is correct. Mr. Elkins decided to 
temporarily suspend it, but he made it clear it was a temporary 
suspension.
    Mr. Cummings. All right, Mr. Perciasepe and Mr. Sullivan, I 
do believe that both of your offices are honorable and you are 
right, and I said it earlier, that we have great Federal 
employees, all of you, and I thank you. Over the past 10 days 
my staff has worked with each of your offices to find areas of 
agreement. You know, a good friend of mine, a judge friend used 
to say in disputes, he would say when elephants battle and 
fight, the grass suffers. And I believe, you know, there is a 
way to resolve this, and I am hoping that we can get there 
because I want everybody to be able to do their jobs. I don't 
want the so-called grass to suffer. And when I say the grass 
here, we are talking about the people of the United States 
getting their taxpayer dollars worth of services out of the 
agencies.
    So, Mr. Sullivan, can you please tell me, first of all, do 
you think the involvement of my staff was helpful to you? Did 
it help identify the issues that needed to be resolved?
    Mr. Sullivan. Yes, sir, it was illuminating. But to be 
candid here, we have been trying to resolve this issue 
internally for many, many, many months. We had no progress 
whatsoever. Your staff, over the weekend, as you know, I spoke 
to your staff many times over the weekend and they made a 
sincere effort and I was very happy to hear that on the part of 
the Agency, or at least what was--I didn't speak directly to 
anyone from the Agency, but your staff did, and I thought it 
was very encouraging.
    Mr. Cummings. Now, Mr. Perciasepe, what do you think about 
what has been accomplished?
    Mr. Perciasepe. You know, I want to be clear also that I 
agree with the IG. Our Office of Homeland Security has no 
independent authority to do investigations in the classic law 
enforcement. They certainly have the ability, under general 
purposes, to analyze intelligence and do things of that nature, 
but they don't. And, to my knowledge, they do not do 
investigations independently; they are assisting the FBI. And 
here is what I think--and I do that as a prelude, Ranking 
Member Cummings, because the idea that we have right now--and I 
am appreciative of what Patrick said about how difficult it has 
been to try to come to grips with this, but Administrative 
McCarthy is going to meet with Arthur Elkins and with the head 
of counterintelligence at the FBI on Friday of next week and we 
are going to try to get a framework on how we can get the law 
enforcement activities going on, because it is clear to me, and 
I think this is a really important thing, that when there is a 
national security issue that the FBI has asked EPA to help them 
with, analyzing information, gathering information, perhaps 
even interviewing people, that there is a possibility, maybe 
not in every case, but a possibility--and I want to point out 
also these are very rare that we do--that that person or that 
activity could also be employing misconduct that is completely 
in the wheelhouse of the inspector general. So the question 
really is how can we get the FBI and the Office of Inspector 
General together so that we can stand down on our side as to 
what it is we need to do to get those two legitimate and 
appropriate things to do, because the people we are talking 
about are--we are not trying to hide behind national security, 
they are working----
    Mr. Cummings. So you agree that the FBI needs to be 
involved.
    Mr. Perciasepe. Absolutely, the FBI needs to be involved.
    Mr. Cummings. Would you agree, Mr. Sullivan, that the FBI 
needs to be involved?
    Mr. Sullivan. Yes, sir. But there are other issues that do 
not involve the FBI, that involve the Secret Service, the U.S. 
Marshal Service, Capitol Police. So it is really across the 
broad spectrum of Federal law enforcement where OHS is 
restricting our information, not just with the FBI.
    Mr. Cummings. I see. Before I forget this, Mr. Perciasepe--
--
    Mr. Perciasepe. You guys can just call me Bob P.
    [Laughter.]
    Mr. Cummings. Okay, Mr. P, let me ask you this. Some kind 
of way, if we got employees who are watching pornography for 
four hours to six hours a day, or whatever was testified to, we 
have to address that. Mr. P, did you hear me? Did you hear what 
I said?
    Mr. Perciasepe. Yes, I did.
    Mr. Cummings. That needs to be addressed. And I think the 
chairman asked you whether that person is still earning a 
salary and you said yes.
    Mr. Perciasepe. You all have more information than I do on 
this case. The IG has informed me of this case, but I have no 
other information on it. I don't know what sites they were 
looking at. So I have no report, I have no information. I have 
nothing to act upon other than a meeting in my office telling 
me that they are investigating this person. Now, I am happy to 
sit down with them and look at it further. I am happy to look 
at what administrative processes we can take, but remember----
    Mr. Cummings. Mr. P, I am just trying to send a message 
back to the Agency.
    Mr. Perciasepe. I hear you.
    Mr. Cummings. We have to deal with that. That makes 
absolutely no sense.
    And do you both agree that the EPA's Office of Homeland 
Security has an intelligence support function to perform, 
including intelligence analysis? Mr. Sullivan?
    Mr. Sullivan. Yes, sir, I do, but in a limited role, 
without having someone with a gun and a badge conducting 
investigations.
    Mr. Cummings. What about you, Mr. P?
    Mr. Perciasepe. I agree that they have the authority to do 
the analysis and the work. I think the key is what can they do 
with the FBI and how do we work that out. And I don't disagree 
with Mr. Sullivan that there may be other law enforcement 
agencies involved with this. But this is the key one. We need 
to get the FBI and the OIG, and then we will be in the support 
role we need to be in.
    Mr. Cummings. Do you both agree that if the FBI is not 
leading an investigation into employee misconduct, it is 
properly the role of the IG, and not the role of the EPA Office 
of Homeland Security, to lead that investigation?
    Mr. Perciasepe. I agree 100 percent.
    Mr. Cummings. What about you?
    Mr. Sullivan. Yes, sir. But again the devil is in the 
details. If there is misconduct, we should be told on the front 
end, not the back end.
    Mr. Cummings. Okay. I have run out of time, but we have to 
resolve this, gentlemen. We have to find a way to get this 
done, because, as I said in my opening statement, legislatively 
I don't see it happening. I would like to think it would 
happen, but I doubt it. So I am hoping that all the agencies--
--
    So, Mr. Sullivan, are you saying that more than the FBI has 
to be brought into the discussion to get these issues resolved? 
Or else we will be back here in the next six months going over 
the same thing.
    Mr. Sullivan. Mr. Cummings, I am saying that OHS has to 
recognize that they must share information with us if it is 
from the Secret Service or the U.S. Capitol Police or the U.S. 
Marshal Service. Right now they are sharing nothing with us.
    Mr. Cummings. Mr. P? Then I am finished.
    Thank you, Mr. Chairman.
    Mr. Perciasepe. On the threat issue that Patrick brought 
up, Mr. Sullivan brought up earlier, it is my understanding, 
and, of course, Mr. Sullivan, I am happy to dig into it deeper, 
but when that threat issue came up from another intelligence 
agency that was not properly and quickly reported to the 
inspector general, I was under the understanding that our 
deputy chief of staff and your office have worked out 
procedures last fall to rectify that problem. But if that is 
not the case, you haven't told me that yet. I am happy to do 
more.
    Mr. Cummings. You know, it is a damn shame that we had to 
come to a hearing for you all to communicate.
    Mr. Sullivan. Well, I can stake here under oath I have 
received zero information from the Office of Homeland Security 
concerning any threat at any time, and none of my agents have 
ever received any information from the Office of Homeland 
Security concerning any threat at any time.
    Mr. Cummings. We can do better, Mr. P. We can do better. 
Would you agree?
    Mr. Perciasepe. Yes. But I thought we had procedures in 
place. I will have to go back.
    Mr. Cummings. All right.
    Thank you very much, Mr. Chairman.
    Chairman Issa. If I can have the ranking member's 
indulgence for just a follow-up. I want to understand. This 
office is an office, I understand, that essentially is simply 
an administrative part of the administrator's headquarters, is 
that right? Because we keep talking about it. I was told this 
was about 10 people and it exists inside Gina McCarthy's 
suites, if you will, there. Is that correct? I just want to 
understand. When we talk about it like it is some agency 
somewhere that does certain things, this is 10 people who work 
for the administrator and have this tasking that I guess almost 
goes to sources and methods kind of thing. Is that right?
    Mr. Perciasepe. Yes. The office was created by Christy 
Whitman after 9/11, when President Bush issued a number of 
Homeland Security presidential directives, when that whole 
system was being set up. EPA has some roles under those. We are 
not a major player, and I think everybody will realize that, 
but we are not an absent player; we are involved with chemical 
decontamination, we are involved with confidential business 
information that may have some security risks and hazardous 
chemical work, and a number of other responsibilities, and 
critical drinking water infrastructure. EPA, for instance, was 
intimately involved with decontaminating the Hart Office 
Building from anthrax. We were one of the lead agencies on 
that. So we have a----
    Chairman Issa. Don't forget about Longworth.
    [Laughter.]
    Chairman Issa. We won't. Both sides of the Capitol were 
contaminated.
    Mr. Perciasepe. I am sorry. I am sorry. All of that. So my 
only contextual comment here for the benefit of the committee 
is that there is a context to the creation of this coordinating 
office in the Office of the Administrator to coordinate these 
activities across the Agency.
    Chairman Issa. And I didn't want to take excessive time. I 
just want people to understand Christine Todd Whitman creates 
essentially 10 assistants to her that operate in her offices, 
and it has a title and it goes on, but it is not a statutory 
creation of Congress, per se, that is mandated; it could go 
away today, is that correct?
    Mr. Perciasepe. We would have to have alternative ways to 
coordinate and make sure our functions and responsibilities 
are----
    Chairman Issa. Right. But you could assign it to the IG, 
effectively, if you wanted to.
    Mr. Perciasepe. I don't think we can assign programmatic 
activities to the IG. I think that wouldn't work.
    Chairman Issa. Okay. But there are remedies.
    Mr. Perciasepe. There are remedies to the issues we are 
talking about, but we couldn't assign, I think, all the 
functions of that to the IG, and I think they would agree.
    Chairman Issa. But employee misconduct they certainly could 
do. Okay, thank you.
    Mr. Mica.
    Mr. Mica. Well, I think you have confirmed for the people 
that I represent that there is a three-ring circus going on in 
EPA and it is quite embarrassing. I hope not too many people 
who are on depressant medications are watching the hearing, 
because this could get you awfully depressed. You have people 
who don't work and get paid for it. You have people who have 
broken laws and stay on the payroll and get paid.
    Who knows, Mr. Sullivan, Mr. Williams, somebody, how much 
does a GS-14 employee make? Isn't that fairly high? What is the 
range?
    Mr. Williams. I believe it is around $120,000, $125,000.
    Mr. Mica. $125,000.
    Mr. Williams. I believe that is the range.
    Mr. Mica. And that is the unnamed GS-14 employee who is 
sitting there for--it says 2010. When did we discover that he 
was looking at the porno?
    Mr. Williams. I believe the information came to us within 
the last six months we acquired that information.
    Mr. Mica. So this guy is making $120,000, spending two to 
six hours a day looking at porno. The information I have is he 
received performance awards during the time period?
    Mr. Williams. He possibly did, yes, sir.
    Mr. Mica. Well, he did or he didn't.
    Mr. Williams. I am not sure.
    Mr. Mica. There is a guy back there with a tie on, stripes, 
and he is nodding his head yes.
    Mr. Sullivan. Mr. Mica, yes, he did receive performance 
awards.
    Mr. Mica. It is just unbelievable.
    We talked about some of this stuff. I had no idea you had 
10 people in an Office of Homeland Security. You have EPA 
leadership obstructing the inspector general and some of their 
activities. It sounds like it is completely out of control. We 
really need to sit down and talk in a bipartisan manner about 
getting Civil Service under control. I chaired it for four 
years. To date, I can probably count all the people on two 
hands I have seen fired. But something needs to be changed when 
people are breaking the law, when you have this GS-14 sitting 
there, abusing his position, his salary, ripping off the 
taxpayers. Somebody told me he is still on the payroll. Is he 
on the payroll, Mr. Williams?
    Mr. Williams. Yes, he is.
    Mr. Mica. This is so offensive it is unbelievable. But we 
need some way to fire these folks, and your hands are tied 
right now, Mr. Williams. You know, we set up Civil Service to 
protect them against political intervention or improper dealing 
with Federal employees, try to give them some job security, not 
make it a political circus, but they have made it a merry-go-
round for ripping off the taxpayers and we can't get rid of 
them. Is that right?
    Mr. Williams. Yes, sir. To take administrative action is 
the responsibility of the Agency solely. The IG can just gather 
the facts and provide that information to the Agency.
    Mr. Mica. And this Office of Homeland Security within the 
Agency, how many other agencies, does anyone know, have similar 
setup?
    Mr. Sullivan. Sir, most cabinet level agencies have 
similar. They are not called the same, Office of Homeland 
Security, but there is something similar that does intelligence 
function.
    Mr. Mica. Well, I can't say they don't belong in every one, 
but it seems like, from a standpoint of better operations, some 
of these things could be handled within the existing structure 
and some can be investigated from your standpoint, right, Mr. 
Sullivan?
    Mr. Sullivan. Yes, sir.
    Mr. Mica. At far less cost, less bureaucracy, and less 
turmoil. I mean, look at the non-disclosure agreements and this 
whole three-ring circus we have here described today of 
agencies trying to function in contravention of themselves. Did 
you tell us, too, they have never found an instance in which 
there was some security issue?
    Mr. Sullivan. What I said, Mr. Mica, was that the Office of 
Homeland Security--I have been the Assistant Inspector General 
for three years. They have never given us one piece of 
information concerning a threat. At no time, ever, did they do 
that. And Mr. Perciasepe is correct, I did meet with his deputy 
chief of staff and was told they were going to try to work out 
the threat information part, but it never happened.
    Mr. Mica. I bet you most of the folks that work, those 10 
people, are all in the GS-14 range, making more than $100,000. 
I would probably be right in that assumption.
    Chairman Issa. The gentleman's time has expired, but you 
can answer if you know their ratings.
    Mr. Sullivan. I do not know. I know that there were two 
SESers, there were some GS-15s, some GS-14s, and some lower 
rank people.
    Chairman Issa. And SESers, Senior Executive Service, make 
over $200,000.
    Mr. Mica. They are way up there.
    Chairman Issa. Thank you.
    The gentleman from Massachusetts, Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. I not that our 
military observers left, so apparently they weren't too 
impressed with the oversight nature that is going on here, but 
let me try to distill this, because I think it is a little bit 
confusing.
    Mr. Perciasepe, we had, apparently, during President Bush's 
term, after 9/11, Christy Todd Whitman, the then administrator, 
set up a small division of 10 people within the EPA to sort of 
get analysis and intelligence, and things of that nature, 
right?
    Mr. Perciasepe. Yes, sir. And also----
    Mr. Tierney. And Administrator McCarthy sort of inherited 
this.
    Mr. Perciasepe. That is correct. As did Administrator 
Jackson.
    Mr. Tierney. All the way through.
    Mr. Perciasepe. Right.
    Mr. Tierney. And what seems to be a problem here is that 
within the Section 811 of the Intelligence Authorization Act 
for Fiscal Year 1995, there is a question as to when things, 
disputes that involve whether or not someone is disclosing 
classified information has to be referred to the FBI or other 
agencies and what is EPA's obligation to include the Office of 
Inspector General in that process, right?
    Mr. Perciasepe. That is correct.
    Mr. Tierney. All right, so that is what the minority staff 
is trying to work with you and Mr. Sullivan and others to get 
resolved. I, for the life of me, don't understand the title of 
this hearing on that basis.
    Mr. Williams, your testimony briefed us on four different 
misconduct cases, right, that involved time and attendance 
issues.
    Mr. Williams. Yes, sir.
    Mr. Tierney. The majority of the allegations of fraud that 
your office receives, do they lead to significant amounts of 
fraud in cases like that?
    Mr. Williams. Time and attendance, sir?
    Mr. Tierney. Yes.
    Mr. Williams. Really, we just don't know what we don't 
know.
    Mr. Tierney. So the four is what you are dealing with.
    Mr. Williams. Well, there are many. We have about 80 
employee integrity cases right now nationwide.
    Mr. Tierney. But in the EPA?
    Mr. Williams. Yes, within EPA, yes.
    Mr. Tierney. Okay. So that is a common problem and it has 
internal controls that need to be addressed?
    Mr. Williams. Yes.
    Mr. Tierney. Have you made recommendations with regard to 
that?
    Mr. Williams. Well, as far as the Office of Investigations, 
sir, we just gather the facts and then we do a report and 
provide that to the agency; we don't make recommendations as 
far as investigations.
    Mr. Tierney. So you don't give them any idea what internal 
controls would improve their situation, you leave that up to 
them?
    Mr. Williams. Not the Office of Investigations. The Office 
of Audit may.
    Mr. Tierney. Okay.
    Mr. Perciasepe, have you done anything, as EPA, with 
respect to the fact-findings that have been shared with you 
from the Inspector General's Office on those time and 
attendance issues?
    Mr. Perciasepe. We have initiated our own audit as well, or 
review, and we have provided that information to the inspector 
general. But on the individual cases that they have concluded, 
within the last month several of them have been concluded, they 
have provided that information to us and the supervisors that 
are involved are now reviewing it to take the proper 
administrative actions. I want to say that since 2009 we, 
working with the IG and in part on some of their findings, 
there have been 71 criminal actions that have been taken, 111 
civil actions that have been taken, and 240 administrative 
actions. So the idea that we don't do anything with these 
things, but we----
    Mr. Tierney. So when they are investigated and when there 
is a finding on that, you take action.
    Mr. Perciasepe. We need to get the findings of the 
investigation to be able to proceed with the administrative 
procedures, if it is going to be proceeding administratively.
    Mr. Tierney. And that is what they are doing, the Office of 
the Inspector General.
    Mr. Perciasepe. They are doing it.
    Mr. Tierney. And they are doing a good job?
    Mr. Perciasepe. Yes.
    Mr. Tierney. And they have given you the information.
    Mr. Perciasepe. When they are done.
    Mr. Tierney. And you are taking action on it. Since 2009, 
you have all those numbers that show the data that show that 
you have taken action on it.
    Mr. Perciasepe. Yes.
    Mr. Tierney. That is the way it should work, right?
    Mr. Perciasepe. Exactly the way it works. I believe, 
personally, again, as Patrick said, under oath, that we have a 
very good relationship with the IG on these matters.
    Mr. Tierney. When you look at all of those, have you 
changed some of your processes and controls to deal with this 
issue at large? Or are you still dealing with it on a case-by-
case situation?
    Mr. Perciasepe. Well, the case-by-case and our own sort 
of--what we did in our support for the work that they are doing 
is we used a survey technique to look across the agency, not 
based on a complaint. We went and did a survey and found 
similar patterns in some areas.
    Mr. Tierney. And you addressed those?
    Mr. Perciasepe. Well, where they appropriately needed some 
action, but what we are doing is this is informing our systemic 
changes, which I reported on a little bit in our hearing in 
October, changing our HR system, changing our computer 
triggers----
    Mr. Tierney. As you should. Let's face the damage that the 
case that Mr. Williams talks about to put a black mark on the 
entire Agency, with that kind of conduct goes on and people 
still have their job after looking at sites and things of that 
nature. I think we all understand it does damage to all the 
people in the agency that are working hard and trying to get 
the job done and doing a relatively good job on that basis.
    But I want to clarify for the record, Mr. Williams, outside 
of issues dealing with that 10-person subsection of EPA, what 
they call the Office of Homeland Security, these fraud and time 
and attendance issues, has there been any EPA obstruction on 
your going after those matters?
    Mr. Williams. No, sir.
    Mr. Tierney. So all those cases that you are dealing with, 
the four you reported or whatever, you are getting cooperation 
from the Environmental Protection Agency.
    Mr. Williams. Well, we are conducting our investigations 
and then we relay the information to the Agency.
    Mr. Tierney. But they are not impeding you in your 
investigation.
    Mr. Williams. No, they are not impeding our investigations.
    Mr. Tierney. So the whole dispute here, despite the title 
of this hearing, which I think is totally misleading, deals 
with the Office of Homeland Security, when EPA reports things 
to that office, when the FBI or other agencies get involved. 
That is pretty much the context of the dispute, is that right, 
Mr. Perciasepe?
    Mr. Perciasepe. I would say that is a major part of it.
    Mr. Tierney. Okay. All right.
    I have no further questions.
    Chairman Issa. I thank the gentleman. I am going to have a 
copy of some of the sites that that gentleman visited given to 
you for your use in camera to make sure you have it. I am not 
going to place it in the record; it would seem to be 
counterproductive to have any advertising come out of this 
hearing that could lead to others, in or out of the Government, 
going to those sites.
    Mr. Perciasepe. Mr. Chairman, thank you for that. The 
normal course of affairs on these matters is once it is in the 
IG's hand, we do wait for their investigation to be completed, 
because they may decide, for reasons we have already talked 
about, to pursue it in a criminal matter. So that parses out, 
and as soon as we get their report, and whichever direction 
they feel it needs to go in, we will follow it.
    Chairman Issa. No, I appreciate that. And they said you are 
not obstructing their investigation, but it is within the 
administrator and your purview and the deputy's purview to 
immediately put somebody on administrative leave, take them 
away from computers, take away their passes if the prima facie, 
if you will, is, yeah, they were doing it. And that authority 
we often--we actually, quite frankly, and I know the gentleman 
from Massachusetts would join me, we often criticize long 
periods of full pay of people who have done wrong, but long 
periods of remaining on the job for somebody who clearly has 
done something wrong is perhaps, between the two, the greater 
of the two, and I think that is part of the reason that in 
addition to the obstruction that we believe the stand-down and 
some of these other activities that we are concerned about 
because of a small subagency, that we are also looking at the 
question of what is the result when something egregious has 
happened, such as the assault on Ms. Heller. The question is 
why is that person not relieved, particularly if they continue 
to assault or to create a hostile environment. Zero tolerance 
is what it is often called, and a zero tolerance for workplace 
violence, abuse, and creating a hostile environment is pretty 
much something that has become widely accepted not just in 
Government, but in the private sector. And your authority, and 
I think the gentleman----
    Mr. Tierney. Would the chairman yield for a second?
    Chairman Issa. Of course.
    Mr. Tierney. I hear what you are saying. I just look at 
this title, Is the EPA Leadership Obstructing Its Own Inspector 
General, as a total separate matter. I think we all agree now 
that they have not been obstructing the Office of----
    Mr. Chaffetz. Will the gentleman yield? Will the gentleman 
yield?
    Mr. Tierney. In a second, please.
    --that the matter differs as to how quickly they react on a 
disciplinary basis. We can all talk about that ought to be 
faster, it ought to be no tolerance on that basis, but it is 
not an indication that they are obstructing the Office of 
Inspector General's work on that.
    Mr. Chaffetz. Will the gentleman yield?
    Mr. Tierney. And I want to know is it a contention of the 
chairman or the majority that in fact they have been 
obstructing this particular investigation.
    Chairman Issa. I think I will do the best thing in this 
case and say, Mr. Sullivan, in some cases, do you feel you have 
been obstructed, denied information, or in some way unable to 
do your job?
    Mr. Tierney. Well, I think that should be Office of 
Homeland Security----
    Chairman Issa. Well, wait a second. Well, but the whole 
point is the Office of Homeland Security, an unauthorized 
person with a gun, the assault that came during that 
investigation, that is the main feature that caused the title. 
But we are not going to have a hearing in which we bring these 
people in and ignore a pervasive failure to discipline and to 
take immediate action for such things----
    Mr. Tierney. Then the title should be Is the EPA 
Disciplining Its People Quickly Enough and In a Proper Way.
    Mr. Chaffetz. Will the chairman yield?
    Chairman Issa. I can't get 4,000 letters for a headline; it 
just doesn't work that way. The fact is that the obstruction of 
the IG, the failure of the IG to do their job and be fully 
informed is the primary reason, and these individuals are both 
from investigations. Yes, this committee is deeply disappointed 
that when someone has done wrong they stay on the job. When 
someone has falsified documents for 20 years as to somebody 
working when they are not, they are still on the job. Those 
management considerations are here because the information was 
provided.
    Mr. Tierney. That would be a shared concern, Mr. Chairman, 
on that, but it is not obstructing the Office of Inspector 
General's job;----
    Mr. Chaffetz. Will the chairman yield?
    Mr. Tierney.--it is failing to do the disciplinary process 
in a way that we might all agree ought to be expedited.
    Mr. Chaffetz. Will the chair----
    Chairman Issa. Thank you.
    Yes, the chairman would yield.
    Mr. Chaffetz. On this topic, Mr. Chairman, I would ask 
unanimous consent to enter into the record from Administrator 
Gina McCarthy a letter on her letterhead, the United States 
Environmental Protection Agency, dated October 28, 2013. It is 
to the inspector general, Mr. Arthur Elkins. In it, she says, 
``Therefore, I request that the OIG temporarily halt its review 
until the process I have described is complete.'' That is 
halting and stopping, and I believe obstructing their ability 
to do their job.
    Mr. Tierney. I assume the gentleman has been here for the 
entire hearing.
    Chairman Issa. Without objection, the document will be 
placed in the record.
    Mr. Tierney. You were here for the hearing, so I assume you 
heard it; you are not being disingenuous. You may be just not 
reading----
    Mr. Chaffetz. I heard every word----
    Mr. Tierney. She made a request, which is not an 
obstruction, and the Office agreed to that request.
    Mr. Chaffetz. The administrator of the EPA is saying to 
temporarily halt its investigation.
    Mr. Tierney. And they did.
    Mr. Chaffetz. True or not? True or not?
    Mr. Tierney. And they did.
    Mr. Chaffetz. And I think that is wrong. That is why we are 
having a hearing. That is why Congress is involved.
    Chairman Issa. Well, I am certain the gentleman does see 
obstruction. If he doesn't, then that is a good reason for the 
title to be the part that we spent a lot of debate on. But I 
thank the gentleman for not debating that somebody surfing 
pornography sites, people falsifying documents, that these 
should lead to terminations, not to bonuses and promotions.
    Mr. Tierney. There would be no disagreement on that.
    Chairman Issa. And with that it is my pleasure to recognize 
the gentleman from Utah.
    Mr. Chaffetz. Prior to that, Mr. Chairman, I would just ask 
to be able to----
    Chairman Issa. Without objection, it will be placed in the 
record.
    Mr. Chaffetz. Placed in the record. And the second thing I 
would say is I think it is equally as wrong that the inspector 
general agreed to that. They should never agree to halt an 
investigation. I don't care who asks them. I think that is 
equally as wrong. But don't deny that the administrator asked 
them in writing to halt their investigation.
    Mr. Tierney. That's not obstruction.
    Mr. Chaffetz. Halting an investigation you don't think is 
obstruction? You and I totally disagree.
    Chairman Issa. I am shocked that this could happen in this 
committee.
    [Laughter.]
    Chairman Issa. Mr. Chaffetz, I look forward to your round 
of questioning. You are recognized.
    Mr. Chaffetz. Thank you.
    Appreciate you all being here.
    Special Agent Heller Drake, I appreciate your service and 
your sharing your personal story. After the incident, my 
understanding is that the Federal Protective Service 
investigated, is that correct? Can you walk us through that 
real briefly, please?
    Ms. Heller Drake. Yes, sir. The Federal Protection Service 
investigated the assault and, like I said in my testimony, they 
interviewed me and they interviewed Agent Dorman, and then 
another individual from the Office of Homeland Security.
    Mr. Chaffetz. And did they come to any conclusions?
    Ms. Heller Drake. They felt that there was probable cause 
for an arrest warrant, which is--I am going to assume they felt 
there was probable cause; that is why they took the affidavit 
to the magistrate.
    Mr. Chaffetz. And then what happened?
    Ms. Heller Drake. The magistrate sent it back to the--my 
understanding is the magistrate sent it back to the Agency for 
administrative action.
    Mr. Chaffetz. What did you think of that, personally?
    Ms. Heller Drake. Well, I was disappointed, certainly, but 
I do understand that the U.S. Attorney's Office is often busy 
and they have priorities.
    Mr. Chaffetz. Did they give you any excuses as to why they 
chose not to pursue this?
    Ms. Heller Drake. No. I don't know.
    Mr. Chaffetz. Did they ever talk to you about it?
    Ms. Heller Drake. No.
    Mr. Chaffetz. So they didn't talk to you, they didn't 
explain, they just referred it back. And now where does it 
stand?
    Ms. Heller Drake. I don't know where it stands right now. 
As far as I know, there has been no action taken against Mr. 
Williams. I have just learned there has been basically counter-
allegations made, I guess. I am not 100 percent sure.
    Mr. Chaffetz. Mr. Perciasepe, you said that without 
exception, without exception. Do you think this is an exception 
or not?
    Mr. Perciasepe. I think Administrator McCarthy, in that 
letter that you are pointing out, had first and foremost in her 
mind the safety of the employees. There are complaints of 
hostile work environment on the employees placed to us by the 
employees of the Office of Homeland Security. There is clearly 
the incident and the feelings and the stress that Special Agent 
Heller is expressing here, which is real and needs to be dealt 
with. The----
    Mr. Chaffetz. So the investigation is halted.
    Mr. Perciasepe. The investigation of what to do with that 
employee that has an 1811 employee, that investigation has 
halted. What has----
    Mr. Chaffetz. You said without exception, they are moving 
forward without exception. That sounds like an exception.
    Mr. Perciasepe. It was by mutual agreement. It was by 
mutual agreement. If the IG wants to change their mind about 
that, then maybe----
    Mr. Chaffetz. Mr. Sullivan, what do you say about that?
    Mr. Sullivan. My boss, the inspector general, Mr. Elkins, 
did agree to temporarily halt the investigation, but I know he 
did that under the caveat that there would be immediate ongoing 
negotiations and discussions to resolve the situation.
    Mr. Chaffetz. Were there?
    Mr. Sullivan. There was an attempt to, but it broke down 
fairly quickly afterwards.
    Mr. Chaffetz. So are you doing the investigation or not?
    Mr. Sullivan. No, not right now we are not. However----
    Mr. Chaffetz. Maybe not Mr. Elkins, but I don't understand 
that.
    Mr. Sullivan. However, the allegation about Ms. Heller 
being assaulted and the subsequent counter-allegations made by 
Mr. Williams against agents in my office, that whole parcel of 
allegations has been referred to the Department of Defense 
Inspector General, and they are conducting an investigation 
looking into the original allegations by Ms. Heller and my 
agents, and then the counter-allegations being made by Mr. 
Williams and other members of OHS.
    Mr. Chaffetz. Guys, take some action. Grab this thing and 
make it happen. It shouldn't take an act of Congress to have to 
get you to all do your jobs. I am sorry, but you have a 
professional agent doing her job, it gets a criminal, then 
nothing happens. This guy looking at porn, how long has that 
been going on since?
    Mr. Perciasepe. You all, again, have more information----
    Mr. Chaffetz. Is the answer 2010?
    Mr. Perciasepe. I do not know. I do not know.
    Mr. Chaffetz. How can I know and you don't?
    Mr. Perciasepe. Because the inspector general has not told 
me.
    Mr. Chaffetz. How many direct reports do you have? How many 
people directly report to you?
    Mr. Perciasepe. Maybe five. I don't know the answer.
    Mr. Chaffetz. Maybe five. You don't know? Is it four, five, 
six? What about human resources, who does human resources 
report to? Do they report to you?
    Mr. Perciasepe. They report to the administrator.
    Mr. Chaffetz. And you are not in that----
    Mr. Perciasepe. The administrator and I are in the same 
box, so to speak, okay. So direct reports--I thought you were 
talking about my management assistant and people who--
obviously, I am the deputy----
    Mr. Chaffetz. Does human resources, or whatever the name is 
over there, do they not share this information with you? If you 
are in the same box as Gina McCarthy, are you telling me that 
she didn't know about it either?
    Mr. Perciasepe. The first time I learned about it was a 
meeting with the inspector general.
    Mr. Chaffetz. You don't think that is wrong?
    Mr. Perciasepe. When?
    Mr. Chaffetz. This is a big deal. Yeah, when was that?
    Mr. Perciasepe. Within the last several months. And they 
are in----
    Mr. Chaffetz. Is it against the rules? Is it against the 
department policies to watch porn at your office?
    Mr. Perciasepe. It is.
    Mr. Chaffetz. Then fire him. Fire him. What is the 
question?
    Mr. Perciasepe. Need to wait.
    Mr. Chaffetz. For what?
    Mr. Perciasepe. For the inspector general's report. I don't 
know if they are going to send him a criminal notice.
    Mr. Chaffetz. Is there any doubt in your mind that this guy 
is watching porn on a regular basis in his office? Is there any 
question?
    Mr. Perciasepe. I have no reason to doubt it because I 
trust the IG.
    Mr. Chaffetz. So what are you doing about it? I would like 
an answer to that question. What is he doing about it?
    Mr. Perciasepe. I am not personally doing anything about 
it.
    Mr. Chaffetz. That is the problem. That is the problem. 
Ding, ding, ding, ding.
    Chairman Issa. Okay.
    Mr. Chaffetz. Yield back.
    Chairman Issa. I thank the gentleman.
    Ms. Kelly, we are going to go to you. I just want one thing 
for the record is, when the IG comes to you with anything, 
including this gentleman surfing these inappropriate sites, you 
have the ability to follow up, ask for additional questions. So 
the fact that you don't know more is not because he would 
withhold it; you have the right to ask for it.
    Mr. Perciasepe. I didn't mean to insinuate that.
    Chairman Issa. Okay.
    Mr. Perciasepe. I am sorry if I did.
    Chairman Issa. You have a lot of things going on. You have 
a large organization. I understand that. I just want to make it 
clear that you could know more. We don't have some information 
that you couldn't have; it is just a question of asking.
    Mr. Perciasepe. I am pretty certain that that is correct, 
yes, sir.
    Chairman Issa. I thank you.
    Ms. Kelly.
    Ms. Kelly. Thank you, Mr. Chair.
    I understand that the EPA's Office of Homeland Security 
entered into a memorandum of understanding with the FBI to 
spell out how the agency and the Bureau would cooperate in 
instances where classified information may have been disclosed 
to a foreign power. That is what we mean by Section 811 
referrals and 811 refers to a statute.
    Mr. Perciasepe, is that your view of what the MOU does?
    Mr. Perciasepe. The MOU is, basically sets out the 
parameters of cooperation with the FBI on national security 
matters, including assistance we would provide to the FBI.
    Ms. Kelly. Mr. Sullivan, one of your concerns about the MOU 
is that it touches upon the Office of Inspector General's 
Oversight and Investigation responsibilities regarding employee 
misconduct, is that right?
    Mr. Sullivan. Yes, Ms. Kelly. The problem, the basic 
problem with the MOU is that the responsibilities and the 
authority of the IG is silence, not mentioned. Our contention 
is in order to have a national security investigation targeting 
an EPA employee, he or she must be engaged in some kind of 
serious misconduct. And our position is and always has been, as 
soon as OHS or any other EPA employee knows about an allegation 
of serious misconduct, they must immediately repot it to the 
IG.
    After that notification is made to us, we will work very 
closely with OHS and the FBI and any other entity. The problem 
is right now, OHS is using that as an excuse to not tell us 
about misconduct.
    Ms. Kelly. I know Ranking Member Cummings has been working 
intensively with both the IG and the EPA, and there's a lot of 
common ground. You both agree that the roles need to be 
clarified, and you agree in large part on those roles, and you 
agree that information should be shared. You also agreed that 
the FBI needs to be part of the discussion.
    Do you both agree that the high level meeting taking place 
next week with top leadership at the office of Inspector 
General, the EPA and the FBI, is the right venue for working 
out these issues? Both of you can answer.
    Mr. Perciasepe. I think we need to break the logjam. If 
indeed there is a logjam that has occurred since October, we 
need to break the logjam. So bringing the Director of National 
Intelligence from the FBI, the Administrator of the 
Environmental Protection Agency and the IG together, I am not 
going to guess that they are going to come up with every answer 
in that meeting. But if they can frame out how we want to move 
forward on these issues we are talking about, I think it will 
be short order after that that everyone else can work out the 
details.
    So I think, Administrator McCarthy, bringing the FBI and 
the OIG leadership together is an important step and obviously 
whatever level we had been working it, it needed to be bumped 
up.
    Ms. Kelly. Mr. Sullivan?
    Mr. Sullivan. Yes. I concur with what Mr. Perciasepe said. 
However, the 811 part of that memorandum with the FBI is a 
small subset. OHS uses that memorandum to expand it way beyond 
811 referrals. The other issue is, we can't be put in a 
position where someone else is negotiating away the OIG's 
authorities. Nor could we legally negotiate away our own 
authorities. We have to be involved in misconduct 
investigations, period.
    Ms. Kelly. All right. Mr. Perciasepe, shouldn't the OIG 
perspective and concerns be addressed at this meeting? Would 
you agree with that?
    Mr. Perciasepe. I'm sorry, I couldn't hear.
    Ms. Kelly. Shouldn't the OIG's perspective and concerns be 
addressed at this meeting?
    Mr. Perciasepe. The IG is the lead, the lead and the 
responsible authority for employee misconduct at EPA. I am 
going to guess that there will be some sequencing on how things 
are done once we have a better framework. But they are the ones 
that are responsible for misconduct. The confusion that comes 
in is that misconduct happening in the commission of a national 
security breach of some kind. And I want to make it clear, the 
Office of Homeland Security does not have the authority to 
issue any do not disclose orders. Those come from the FBI.
    But the key here is how to sequence the proper 
investigations when there may be both an employee misconduct 
investigation and a national security investigation that is 
obviously being enabled by the misconduct itself. So those 
things need to be coordinated. I am not an expert in law 
enforcement deconflicting. But this happens every day in one 
way or another. And I have high confidence, Mr. Chairman, that 
we will be able to do this if we can get the right people 
together.
    Ms. Kelly. I hope you are correct.
    I will yield back, Mr. Chairman.
    Mr. Chaffetz. [Presiding] Thank you. I now recognize the 
gentleman from Michigan, Mr. Walberg, for five minutes.
    Mr. Walberg. Thank you, Mr. Chairman. Might I suggest, Mr. 
Chairman, that maybe a headline for this hearing ought to be 
something like The Atmosphere and Environment of the EPA is 
Polluted.
    [Laughter.]
    Mr. Walberg. Mr. Sullivan, following that train of thought, 
it appears that there are other examples of EPA obstruction of 
your office. Beth Craig lied to the OIG. Is that true or not?
    Mr. Sullivan. Yes, that's correct.
    Mr. Walberg. She is a deputy administrator at OIR in EPA.
    Mr. Sullivan. She was. She has been reassigned to another 
position now.
    Mr. Walberg. Another position. Region 9 Administrator Jared 
Blumenfeld lied about personal email use, is that correct?
    Mr. Sullivan. Sir, I have no knowledge of that. I do not 
know if he lied. Mr. Blumenfeld was never interviewed by my 
office or my agents concerning an email. That might have been 
our auditors, but I have absolutely no knowledge of that.
    Mr. Walberg. It was the Office of Audit, I am just told.
    Nancy Dunham refused to be interviewed. Is that correct?
    Mr. Sullivan. That is correct. Again, that was a request by 
Office of Audit, and they did personally discuss that with me.
    Mr. Walberg. I think we need to point those few examples 
out, that we continue to have to deal with. And one thing about 
history, if we don't learn from it, we are bound to repeat it.
    So I want to go back to the secret agent man from the CIA, 
EPA. Whatever he determined himself to be. And Mr. Perciasepe, 
how did the EPA Office of Homeland Security become involved in 
the John Beale matter? Again, we are going back in history, 
lengthy history, to see if we have learned for the present or 
if there are some similar things that are taking place right 
now.
    Mr. Perciasepe. I can tell you that nobody's been claiming 
they are working at the CIA at EPA right now. That part of the 
history I hope we will never have to live again.
    Mr. Walberg. But they are working at other places, and 
without working.
    Mr. Perciasepe. I would like to say here hindsight is 
always 20-20. But I like your approach better, that what are we 
learning how are we getting over it.
    Mr. Walberg. Right.
    Mr. Perciasepe. When the John Beale matter, again, as you 
pointed out, it was going on for a good decade before that with 
many other people involved. But when that first started to come 
up, like, this can't be right kind of come up, the first 
instinct people had was to find out if this person really did 
work for the FBI. I mean, I am sorry, the CIA.
    So I think there is where we got tangled up. I am using 
hindsight and what lessons have been learned.
    Mr. Walberg. This was the EPA Office of Homeland Security.
    Mr. Perciasepe. Well, it was originally the Office of, the 
Personnel Office, the HR Office, is there any record of this. 
They asked the senior intelligence officer, the agency involved 
with, the unit in the agency that communicates with the 
intelligence community, whether they had any information. And 
that went on for a couple of months.
    Mr. Walberg. And how many interviews did OHS conduct of 
John Beale?
    Mr. Perciasepe. I do not know the answer to that. So then 
once they figured out there is no record anywhere of this, that 
is when it was turned over by the General Counsel and Homeland 
Security to the IG. That is my recollection.
    Now, if I had to live that through again, same lesson 
learned, I would have given it to the IG right away.
    Mr. Walberg. Right away.
    Mr. Perciasepe. But I didn't know we were looking into 
this.
    Mr. Walberg. What you are saying is that the EPA Office of 
Homeland Security interviewed John Beale before the OIG?
    Mr. Perciasepe. I don't know what they did. All I know is 
that they tried to find out if he worked for the CIA. Again, I 
testified in October that I can see the logic that this would 
be a human resources thing, is there any record of this. They 
went to the liaison with the intelligence community saying, do 
you have any record that this went on.
    Mr. Walberg. Mr. Sullivan, did you have first crack at 
interviewing Mr. Beale, or did EPA Office of Homeland Security 
have first crack at it?
    Mr. Sullivan. The Office of Homeland Security interviewed 
Mr. Beale at least three times before we even knew about the 
case.
    Mr. Walberg. How did that impact your investigation?
    Mr. Sullivan. Well, it severely impacted us, because Mr. 
Beale then was alerted that his fraud had been discovered 
before the proper authorities, being the IG Office of 
Investigations, had been alerted. And he was able to backtrack, 
potentially destroy records, potentially build an alibi.
    And then when we first approached him, he was expecting an 
interview and he referred us to his attorney.
    Mr. Walberg. So it harmed your inspection process, the 
process you are defined to do, capable of doing, authorized to 
do. It hindered.
    Mr. Sullivan. It hindered. Yes. It clearly harmed our 
investigation. It delayed it and harmed it.
    Now, had OHS simply done as Mr. Perciasepe suggested, a 
records check with the CIA, we would have been perfectly fine 
with that. That's part of their analytical job. Their job is 
not to interview employees. That is our job.
    Mr. Walberg. That is your job.
    Mr. Sullivan. That is my job.
    Mr. Walberg. Mr. Chairman, if I could ask one more 
question, in deference to all the time I have had to sit here 
and wait for others that went way overboard.
    Let me ask this question, Mr. Sullivan. Is the handling of 
the employees in question today that we are talking about that 
Ms. Heller had to suffer through and all the rest, is it 
significantly different process that is going on now compared 
to Mr. Beale's? Relative to your responsibility, your 
authority.
    Mr. Sullivan. Mr. Walberg, I could tell you as of right 
now, I have zero visibility on what OHS is doing. I have no 
idea what they are doing, I have no idea what cases they are 
working on. I have no idea what employees they are 
interviewing.
    Mr. Walberg. That is the problem. The atmosphere and 
environment around the EPA is polluted. And it is affecting 
your impact. I yield back.
    Mr. Chaffetz. I thank the gentleman. I now recognize the 
gentleman from North Carolina, Mr. Meadows, for five minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    Mr. Perciasepe, let me cone to you. We have heard about 
pornographic sites being looked at, we have heard about people 
being paid without showing up for work, we have heard about CIA 
agents, we continue to hear stories. Would you not say that the 
EPA has a management problem, a systemic failure in management?
    Mr. Perciasepe. EPA has 16,000 employees.
    Mr. Meadows. That is not the question. I understand that. 
Do you have a management problem, a systemic problem within 
management to allow these kinds of things to go on?
    Mr. Perciasepe. No.
    Mr. Meadows. Okay. I am troubled by that, because as we 
continue to hear these things unfold and unfurl, let me turn 
your attention to Region 4, of which covers my district of 
North Carolina.
    In 1990, the EPA came in and conducted a test on one of my 
constituents' piece of property without her permission and took 
samples and found that there was toxic, hazardous substance on 
her property. Do you think that it would have been proper to go 
onto her piece of property without her permission? Yes or no. 
Is it proper to go onto somebody's property without their 
permission?
    Mr. Perciasepe. I don't know.
    Mr. Meadows. Okay. Let me go on further. Do you think it 
was proper, when they found that, that they did not tell her 
for over nine years that there was toxic stuff on her property? 
Yes or no? Would you want to be informed if you had toxic stuff 
that was found on your property? Would you want to be informed 
by the EPA that it was there?
    Mr. Perciasepe. Yes.
    Mr. Meadows. Okay. So do you not think that that would be a 
good thing to do?
    Mr. Perciasepe. I really have no idea what the 
circumstances you are talking about. I want to be responsive 
here. I don't know whether it was under some court order, I 
have no idea. I am happy to drill deeper.
    Mr. Meadows. Okay, well let me tell you, you have been 
drilling deep, because the IG has been involved, and this is a 
contaminated site, a Superfund site, of which it has been there 
for 25 years. And yet we have not even started to clean it up. 
Do you think that that is a problem?
    Mr. Perciasepe. That is a budget problem.
    Mr. Meadows. Oh, that is a budget problem. So we have a 
tremendous budget, and so we have known toxic water with 
contamination in water, we have a budget problem, but we are 
spending billions of dollars on other things, but we can't 
clean up a site in Asheville, North Carolina.
    Mr. Perciasepe. EPA's Superfund budget has been cut through 
the years.
    Mr. Meadows. So let me go on a little bit further. Here is 
a report that you should have had. This was a call center who 
received a call from a constituent in my district in September 
of 2009, in April, it was a hot line. And they said that there 
was contamination. Do you know when that phone call was 
returned? Never. Do you know when the voice mail was checked? 
September of that year. Five months.
    Now, this is a hot line. Do you not see that as a problem.
    Mr. Perciasepe. Yes.
    Mr. Meadows. Okay, you see that as a problem. So let me in 
the time remaining go on a little bit closer because this is 
Region 4, this is water quality. We have a Superfund site that 
is not being cleaned up. And yet what we decided to do, and I 
say we, because it is the government, I certainly wouldn't have 
decided to do this, it appears that we gave a $63,000 bonus to 
the Water Quality guy in 2013 for a job well done. Are you 
aware of that? Sixty-two thousand nine hundred and eighty-five 
dollars, to be exact. This is on top of his $179,000 salary. Do 
you think that this is part of a job well done?
    Mr. Perciasepe. Well, I don't think Superfund is part of 
the Water Division's work.
    Mr. Meadows. But he is managing, it is Water Quality. I 
have been involved with it, I know it extremely well. Do you 
think he deserved a $63,000 bonus? What do I tell the single 
moms back in Asheville, North Carolina, when a Federal 
Government employee is getting a $63,000 bonus?
    Mr. Perciasepe. I have no idea whether that person had any 
involvement with this project at all. So you are asking me a 
question I can't answer.
    Mr. Meadows. So you justify a $63,000 bonus on any, so he 
is making $240,000, you think that is a----
    Mr. Perciasepe. I don't even know what the bonus was for, 
sir. So it is very difficult for me to be able to be responsive 
to you here.
    Mr. Meadows. Okay. When do we start to change the 
management process within the EPA to allow the American 
taxpayers to trust that somebody is going to get fired when 
these things go on? How many people have been fired so far 
based on the actions that we have heard about today? How many 
have been terminated?
    Mr. Perciasepe. Can I answer?
    Mr. Meadows. Sure.
    Mr. Perciasepe. Employees have rights. And we take, all of 
the things that have been talked about today are in an 
administrative or IG investigation process. Taking final 
actions on employees' termination, suspension, or docking of 
pay or whatever is available to be done can't be done without 
those processes. And more importantly, and I want to be clear 
about this, me saying what I think should happen here today 
while those are still going on will prejudice those reviews.
    Mr. Meadows. Okay.
    Mr. Perciasepe. So I am not going to do it.
    Mr. Meadows. That is an explanation. That is not an answer. 
How many have been terminated?
    Mr. Perciasepe. None.
    Mr. Meadows. That is what I was afraid of. I will yield 
back.
    Mr. Chaffetz. Mr. Perciasepe, is it, could you provide to 
the committee how many people have been fired in the last, say, 
five years? Is that fair? I am not asking for names.
    Mr. Perciasepe. I will provide, up to firing, I will 
provide all of our disciplinary actions in the last five years. 
I will do that.
    Mr. Chaffetz. And you will provide that to this committee?
    Mr. Perciasepe. Yes, I will.
    Mr. Chaffetz. Very good, thank you.
    I will now recognize the gentleman from California, Mr. 
Cardenas, for five minutes.
    Mr. Cardenas. Thank you very, very much, Mr. Chairman.
    Mr. Sullivan, you say that it is important for EPA's Office 
of Homeland Security to share with the IG any information it 
may come across concerning potential criminal misconduct of an 
EPA employee. This information is not only necessary because 
you believe that the OIG has jurisdiction to investigate these 
cases but also because, as a practical matter, your office 
needs the information for deconfliction purposes. Is that 
correct?
    Mr. Sullivan. Yes, sir.
    Mr. Cardenas. Can you explain to us what you mean by 
deconfliction and why it is so important?
    Mr. Sullivan. Yes, sir. There is a basic tenet in law 
enforcement that you don't want to step on another agency's 
case. But most importantly, you don't want to put your agents 
or the agents or the officers of another agency at risk. It is 
critically important in drug investigations or counterfeiting 
investigations where we have an undercover officer. But it is 
also equally important in instances where you have a target 
where two agencies may be targeting the same individual for 
alleged criminal activity.
    It just does not bode well when the agencies aren't talking 
with each other. Nothing good happens from that and a lot of 
bad things can happen.
    Mr. Cardenas. Thank you for your answer.
    Mr. Perciasepe, I find Mr. Sullivan's argument for 
information sharing relevant. Do you agree that the IG should 
be informed whenever there is a national security investigation 
involving an EPA employee?
    Mr. Perciasepe. I think we did talk about this a little bit 
earlier. We are having a meeting on Friday of next week with 
the head of counterintelligence of the FBI and the Inspector 
General and the Administrator is bringing them together to see 
if we can come up with how we deal with that. Because you have 
zeroed in on, I think there are many issues being discussed 
here, but we zeroed in on one key one that I feel is workable 
and we can figure out what the proper sequences are. And that 
is when the misconduct is occurring in the conduct of a 
national security issue, and how that goes about.
    I believe as I think you are alluding to that law 
enforcement agencies do this kind of deconflicting all the 
time. And we just need to get the proper protocols and standard 
operating procedures in place to make sure that they happen 
appropriately.
    Mr. Cardenas. Is one of the things that is on the minds or 
concern of respective departments when it comes to 
investigations, is one of the concerns that if you don't follow 
appropriate protocols that actually there could be a lawsuit on 
behalf of an employee, and unfortunately their chances of 
winning might be increased because you weren't being careful 
enough?
    Mr. Perciasepe. I would argue there are probably many 
complications. Those could be some of them that have to be 
carefully weighed when there is overlapping jurisdiction that 
needs to be worked out.
    Mr. Cardenas. One other thing is if one of you could 
clarify for us when a person is a government employee, do they 
inherently give up their rights that we have as American 
citizens?
    Mr. Sullivan. No. Everyone has their constitutional rights 
if you are accused of a crime. However, as a government 
employee, if any inspector general wants to question you, in 
your role as a government employee, there is a warning that we 
issue called a Kalkines warning, which in effect tells the 
person being interviewed that you cannot be prosecuted for the 
statement you are going to give us. Nothing you say can be used 
against you unless you lie to us. You are compelled to speak to 
us, and if you don't speak to us you will be subject to 
disciplinary action up to and including removal.
    And that is across the board in the entire Federal 
Government, whenever the IG approaches someone, as long as you 
are not under criminal investigation or criminal exposure.
    Mr. Cardenas. So in other words, there is the allowance 
within the relationship between Federal employees and 
management and/or investigative authorities at the Federal 
level to get down to the bottom of improving what is going on 
within agencies, and they do have access to those employees. 
Yet at the same time, it sounds like those employees can't be 
treated with impunity on how those investigations or how that 
questioning takes place.
    Mr.Sullivan. Yes, but the issue of the Kalkines warning is 
within the purview of the Inspector General's office. It would 
not be appropriate for other entities within an agency to issue 
that warning. That is reserved for IG business to collect the 
facts to ensure that we have relevant information and people 
are truthful to us.
    Mr. Cardenas. So basically, unfortunately, for some people 
who think that it is simplistic, it isn't simplistic, it is a 
bit complicated.
    Mr. Sullivan. It certainly is complicated, sir. Yes. But 
they are workable problems, but it is complicated.
    Mr. Cardenas. Okay, thank you very much.
    Thank you, Mr. Chairman, I yield back my time.
    Mr. Chaffetz. I thank the gentleman.
    We will now recognize the gentleman from Michigan, Mr. 
Bentivolio, for five minutes.
    Mr. Bentivolio. Thank you very much, Mr. Chairman.
    Yesterday I attended a field hearing in my district in 
Michigan that dealt with how Federal regulations are impeding 
the growth of small businesses and manufacturers. One common 
theme throughout the hearing related to regulations being 
imposed by the EPA which do not solve any relevant problems and 
will cause these businesses billions of dollars to comply.
    I am not discounting the EPA. Throughout history when 
serious problems have arisen, we have put in place appropriate 
and effective regulations that protect Americans. The impact of 
regulations can be good. However, I am back here today 
attending another hearing regarding the EPA, only to discover 
the EPA is involving themselves in areas that they should not 
be involved in. Things are occurring at the EPA which cause me 
great concern about the leadership and how work is being 
conducted or maybe not conducted.
    Maybe the EPA has too much time on their hands or too many 
employees working for the agency because instead of 
concentrating on determining what regulations are needed and 
would be effective to safeguard Americans and not cost 
businesses billions of dollars, thus regulating America out of 
business, the agency is involved in questionable activities. In 
an article published September in 2013 prior to the government 
shutdown, the EPA announced that only 1,069 of its employees 
out of the 16,205 employed were essential.
    So basically, EPA acknowledges that over 90 percent of its 
employees were not essential. I think maybe this confirms my 
point that the EPA might have too many employees and too much 
time on their hands, and that this has created an environment 
that encourages misconduct.
    With that being said, I have a few questions. Mr. 
Perciasepe, that being said, you have 15,000 employees that you 
basically said were non-essential. Have you completed an audit 
to determine how many employees are essential to protect our 
environment?
    Mr. Perciasepe. First of all, let me say the determination 
of an exempt and non-exempt employee during a cessation of 
appropriations is a very different thing than whether they are 
needed to implement the laws that Congress has enacted. It is 
whether or not they are needed to stay behind and run the risk 
of not being paid, depending on the outcome of Congress' 
resolution of the budget, because of a danger to the public's 
assets or an immediate damage that might occur.
    Mr. Bentivolio. Mr. Perciasepe, you have John Beale, an 
unnamed GS-14 EPA employee viewing pornography at work for two 
to six hours a day, you have people working--holy cow--that are 
getting paid, not at work, don't even have a building pass, 
don't even really have a computer hooked up to the EPA. You 
have Renee Page, who has received a prestigious Presidential 
rank award in 2012, a cash award of $35,000, who hired 17 
family members and friends for paid intern positions, sold 
jewelry and weight loss products during her leisure time during 
work hours, her daughter was an employee at the EPA, received a 
cash bonus from Ms. Page's budget account, inappropriately 
influenced a contract. We will hear more about that, I am sure, 
later.
    Beth Craig, which is, oh, Mr. Beale's travel expenses I 
think she approved. Another GS-15 employee getting paid while 
in a retirement home. Retention bonus abuses, one thing after 
another. But you know, the other thing that I heard in my 
district from many people saying that the EPA is looking for a 
new mission. Because what I am hearing complaints from, I am 
from Michigan and you can travel seven miles in any direction 
and hit a body of water. Thousands of lakes and rivers and 
streams. And we have a lot of those lakes that have a small, 
seasonal marina. They rent rowboats for fishermen to fish 
during the day for about $15, $20 per day. And the EPA is 
visiting them and causing havoc. Some of these people have told 
me they are going to have to shut down to meet those 
requirements.
    So once again, have you completed an audit to determine how 
many employees are essential to protect our environment? 
Because it appears, sir, that they have more time on their 
hands and they are looking for a mission.
    Now, I want to be clear, I grew up in a time when we have 
Love Canal and rivers that caught on fire. EPA was a great 
champion. But you have 16,000 employees, it appears, looking 
for a new mission.
    Sir, have you conducted an audit and if not, will you some 
time in the future?
    Mr. Perciasepe. I really don't know what that audit would 
be. But we haven't done an audit. I am just going to answer you 
straight up. We don't have an audit on trying to determine 
whether each employee is essential or not essential.
    Mr. Bentivolio. I strongly suggest you do so.
    Mr. Perciasepe, you said to my colleague, Mr. Meadows, that 
your employees have rights. I want to tell you, Mr. Perciasepe, 
I want you to know, my constituents have rights, too. And they 
take precedence over the rights of your employees.
    Thank you, Mr. Chairman.
    Chairman Issa. [Presiding] Thank you. The gentleman's time 
has expired.
    Mr. Perciasepe, is there something you wanted to say in 
response?
    Mr. Perciasepe. I appreciate that, Mr. Chairman. On the, 
getting back to the substance of the small marina operators, I 
am happy to look into that if you want me to.
    Mr. Bentivolio. Thank you very much. I look forward to your 
visit, we will give you a tour of the many Michigan lakes and 
streams.
    Chairman Issa. The gentleman's time is expired.
    Mr. Perciasepe. As long as I can do some muskie fishing, I 
will be happy.
    Mr. Bentivolio. Very good.
    Chairman Issa. You didn't come to Cleveland for walleyed 
pike.
    [Laughter.]
    Chairman Issa. And with all due respect, what came out of 
those boats that burned on the Cuyahoga has been greatly over-
exaggerated. And you Michigan folks going after us 
Clevelanders, I have a problem with that, a little bit. But we 
will get into that at another time.
    With that, we go to Mr. Woodall.
    Mr. Woodall. Thank you, Mr. Chairman.
    Mr. Perciasepe, I appreciate your training us up on name 
pronunciation. I am a big believer in training folks up. I have 
only been here three years and I can still be trained up. And I 
think that is true government-wide. My recollection of Mr. 
Beale's case is that he was discovered because of a change in 
EPA leadership that folks who had not become accustomed to his 
ways began to ask questions and that change led to better 
outcomes for us as a Nation.
    I appreciate the work of the folks at OIG. It is a hard 
job. And whether you are a Republican administration or a 
Democrat Administration, you have an IG there and the IG's job 
is to train you up. And we don't have an IG on individual 
members' offices here. If we did and they came by my office, I 
would like to think I am 100 percent the best fellow on Capitol 
Hill, but I am convinced that if I brought in some folks, they 
could train me up.
    But it is hard to accept constructive criticism, because 
you do want to do the best you can with what you have to work 
with. Tell me about the culture at EPA. Do you view the three 
folk sitting to your right as part of a team whose 
responsibility is to make you better every day and a 
responsibility that you value? Or is it a different 
relationship with the folks who sit to your right?
    Mr. Perciasepe. As you just pointed out, there is always 
going to be some differences of opinions. We have been talking 
today about a significant one that I think can be worked out.
    But on a general matter, I pointed out earlier that since 
2009, since I came back in December of 2009, there has been 
about, a little over 2,600 different audits, reports, analyses 
done by the IG that we have cooperated on. We do 50 
significant, I recall, audits a year, roughly. I think that is 
about right, Patrick and the rest of the gang here. And the 
vast majority of those are done in a way that we are learning 
every step of the way. We are learning and responding. In the 
questions we are leaning and putting together the action plan.
    Not only that, we have a pretty open management structure 
at EPA. For instance, I chair a group called the Executive 
Management Council, which is made up of all the career 
deputies, including the career deputy of the Office of 
Inspector General. They are full participants in that 
discussion. We have an annual process under the Federal 
Managers Financial Integrity Act, FMFIA, where the IG comes in 
and makes presentations to the entire senior leadership of the 
agency on where they see our weaknesses. It is kind of to have 
a culture that is open.
    Mr. Woodall. I appreciate that. And that is exactly the 
question I was asking, I appreciate your answering it in that 
way. But I have to ask the folks from the Inspector General's 
office, was this a tale of a lot of collaboration and a lot of 
working together, but the reports I have in my folder this 
morning are things that I would hope would have never been 
written, because we would have never had those problems, 
because we would have had a structure in place that those 
didn't occur to begin with.
    Is the structure that Mr. Perciasepe describes, Mr. 
Sullivan, of cooperation and collaboration, is he describing 
his own view, or is he describing the EPA culture?
    Mr. Sullivan. We have an excellent working relationship 
with the rest of the agency. However, it is extremely 
dysfunctional at the Office of Homeland Security. That is why 
we have to resolve that.
    Mr. Woodall. Tell me about that, Mr. Perciasepe. Because 
you spoke with great fondness about the collaboration that goes 
on there. Here we have a single office within a giant agency, a 
single office that we can agree has impeded the spirit of 
collaboration and cooperation that you provided. The tale that 
Ms. Heller had to tell about her encounter, we would have had 
that person fired this afternoon.
    Now, we don't have the same workplace protections in 
Congress that you have at the EPA. But that would not be 
tolerated. Why does it require a Congressional hearing to solve 
this issue when you have that collaborative relationship? And 
we are talking about one subdivision of dysfunction in an 
otherwise functioning agency.
    Mr. Perciasepe. It needs to be, it needs to be reconciled 
and worked through. And we have made attempts to do it. And we 
have now elevated it inside the agency. And Administrator 
McCarthy and Randall Coleman, who is the head of, works at the 
FBI as the head of counterintelligence for the United States 
and the Inspector General are going to get together next week 
and they are going to try to put the framework together to deal 
with what kind of standard operation procedures or protocols we 
are going to need to have to deconflict this issue. And the 
tensions, and the confrontations that may occur are all 
derivative of these mission problems, I believe. We are going 
to have to deal with individuals' behavior as we get 
information on that.
    Mr. Woodall. You would agree with me then that again, 
within this very collaborative process that you have described, 
cooperative process, there is no set of circumstances where 
this really persists. Not should persist, but will persist. We 
will in fact solve this because we can.
    Mr. Perciasepe. That is the intent, is to do that. Just 
listening to today, when I get back to the office I am going to 
direct the Office of Homeland Security to seek permission to 
share the information that Mr. Sullivan is talking about with 
them.
    Chairman Issa. Would the gentleman yield?
    Mr. Woodall. I would be happy to yield to the Chairman.
    Chairman Issa. Well, as long as you are going to do that, 
Mr. Perciasepe----
    Mr. Perciasepe. This is permission from the FBI.
    Chairman Issa. Well, as long as you are going to do that, I 
would certainly hope that you would hear out what Mr. Sullivan 
said and we knew from the previous investigation, that the 
interference by an entity that had no business being in the 
middle of Mr. Beale's corrupt activity, a man who was the 
direct report to the Administrator, worked for her for years. 
That interference, you know and I know and the American people 
know, reeked of her personal staff, these 10 people that worked 
for her in an entity she created, or sorry, she continued but 
redirected, that interference in the investigation of Mr. Beale 
is exactly the kind of interference that makes it look like the 
IG is okay as long as they are doing stuff that she doesn't 
care about or that you don't care about.
    But quite frankly, I heard it here today and I saw it in 
the investigation. Mr. Beale should have been discovered a long 
time ago. The Administrator herself deserves a lot of 
culpability, not just for the years that she didn't see it, but 
after she knew it and it could have been stopped sooner and it 
wasn't.
    I hope you are taking that back, because I know Mr. 
Sullivan and Mr. Williams, and I hope the Inspector General 
himself, are concerned that that is part of the obstruction 
that has to end. And I am sorry, but you can't have a 
management discussion about it. It never should have happened. 
It should have been zero tolerance. That type of interference 
with the IG is not deconflicting. Do you understand that here 
today? If you have any disagreement, please say it now in front 
of us and the IG.
    Mr. Perciasepe. I can't remember everything you said, Mr. 
Chairman, but----
    Chairman Issa. Your squad, this 10-man unit, interfered in 
the Beale investigation with the IG. That is already in our 
taillights. But it is exactly the kind of thing that has to be 
deconflicted.
    Mr. Perciasepe. Yes.
    Chairman Issa. Thank you. Mr. Sullivan?
    Mr. Sullivan. Yes, sir, I would just like to underscore, 
though, that the issue with the FBI is one part of the issue. 
The other issue is the Office of Homeland Security receiving 
allegations of misconduct and then independently vetting those 
allegations, conducting an investigation, with or without the 
FBI, without telling us. Our position is and always has been, 
as soon as OHS or another employee receives an allegation, they 
must immediately inform the IG.
    Chairman Issa. Exactly. It is outside their purview the 
moment they hear about it. It is no different, Mr. Perciasepe, 
than if you heard about it, your job is to call the IG. Your 
job is not to send it to some entity created for a completely 
different purpose. That is what the ranking member I know has 
been trying to work on with his staff on a unilateral basis, 
and I respect that if he can get it done, that is great. This 
hearing is about the fact that it hasn't gotten done.
    Thank you, and I thank the gentleman for yielding. This is 
the second round now, so I will go to Mr. Chaffetz, and then 
the gentleman from California. Mr. Chaffetz?
    Mr. Chaffetz. I thank the chairman.
    Mr. Perciasepe, Renee Page, are you familiar with Renee 
Page?
    Mr. Perciasepe. Yes, I am.
    Mr. Chaffetz. She is the, as I understand it, the Director 
of the Office of Administration at the EPA, correct?
    Mr. Perciasepe. I don't know her exact title.
    Mr. CHaffetz. But she is still employed at the EPA?
    Mr. Perciasepe. She is employed, but she has been removed 
from that responsibility during the conduct of the review of 
the report.
    Mr. Chaffetz. Do you know what she is doing right now?
    Mr. Perciasepe. I do not. She is not managing that program. 
We are in the process of reviewing the report we got from the 
IG a couple of weeks ago.
    Mr. Chaffetz. I don't know if it is Mr. Williams or Mr. 
Sullivan, can one of you please explain what it is you found 
about her?
    Mr. Sullivan. Mr. Chaffetz, there was an issue, we have to 
be very careful here because of the Privacy Act. Ms. Page was 
not charged with a crime. And she has certain rights as an 
employee. So we did not publicly release her name. So we are 
very uncomfortable discussing her by name.
    Mr. Chaffetz. This is a person who earned a cash award of 
some $35,000. Now, that alone to me, I am sorry, but as a 
Federal employee, unless you are personally helping to take 
out, as some people did, Osama bin Ladin and others, a $35,000 
cash award seems, it seems obscene, in my opinion. Given that 
this is still under review, I will, I am just deeply concerned 
about what is happening here.
    My understanding is that, you did the investigation, it was 
then referred to, who did you refer it to?
    Mr. Williams. It was referred to EPA management.
    Mr. Chaffetz. How long ago was that?
    Mr. Williams. About two months ago, I believe.
    Mr. Chaffetz. What is a reasonable amount of time, what is 
a reasonable amount of time so you can come to the conclusion? 
Two months?
    Mr. Perciasepe. Again, I am in a similar situation here of 
what I can say and can't say. There are things going on----
    Chairman Issa. Would the gentleman suspend, please?
    Mr. Perciasepe. I really can't, Mr. Chairman.
    Chairman Issa. If the gentleman will suspend, stop the 
clock. I have been advised by counsel and have previously been 
advised by counsel that you are not in a forum in which that 
statute applies. Now, we will not ask you, yes, the privacy of 
this woman by name is not a question that you can say I can't 
answer in this forum. You are being asked before a hearing 
about an individual by name.
    Now, criminal referrals and the details that are beyond the 
scope of what the gentleman's questions are, I would ask him 
not to ask and you not to answer, because I think that could 
impede the criminal investigation. But the facts such as her 
activities, her sales, the bonus and so on, all of that is 
within the scope of this committee and is not covered by a law 
that was written not to apply to us and not to apply to her 
investigation. I want to make that clear in this forum. Because 
we go through this in depositions and transcribed interviews.
    Additionally, the fact that DOJ has declined to prosecute 
is not something that is going to be withheld. The American 
people have a right to know that allegations were made, they 
were sent to the department of Justice, that is where we have 
our source of these allegations. They declined to prosecute it, 
it is now back for an administrative decision. She may not have 
committed any crimes, but the elements that were sent there 
which were fact-based and the decline and now that it is before 
administrative, all of those elements of her activities are 
fair and reasonable for the gentleman to ask and to expect a 
full and complete answer.
    So the gentleman will continue.
    Mr. Chaffetz. Let me just simply say, the allegations are 
very serious. And we have outlined a host of them. And Mr. 
Perciasepe, you make a point, it is a good point, it is a large 
agency with 16,000 employees. But what you have heard here over 
the course of the last several hours are very senior people. We 
are not talking about some newbie who is in the bowels of the 
administration somewhere. We are talking about senior 
management level people. Mr. Beale had a very senior level. 
This person I just referenced had a very senior position in the 
administration.
    And that is the concern. And there is this overarching 
feeling and concern that justice doesn't ever play out. We 
heard that in the case of the person sitting right next to you, 
Special Agent Howard Drake. Where and when do people actually 
get fired? When is there accountability?
    I think that has a much more detrimental effect on the rest 
of the 16,000 employees who are good, hard-working, patriotic 
people, they work hard, they are doing good for their country. 
But when they don't see justice served, they are left to think 
that there is no justice. And that is fundamentally wrong, and 
that is the overarching point.
    I am not trying to pick on any one person. But when 
somebody is giving bonuses to their own daughter out of their 
account, that is a problem. And I don't know why it takes 
months to figure it out. We have an employee who is looking at 
over 600 porn sites in a four-day period and it is there in 
black and white, fire them. That is the message I guess we are 
trying to convey back. And I look forward to working with you. 
I appreciate your sitting here. You are braver than most to 
come in and chat with Congress. Coming before Congress is not 
necessarily a fun thing.
    But that is our concern, is holding people accountable.
    Mr. Perciasepe. First of all, on the last comment, I want 
you all to understand, I view this as my sacred responsibility, 
to work with you. So you can ask me whatever you want. What I 
don't want to do is not so much a legal thing, as the Chairman 
alluded to, I don't want to say something, as one of the 
leaders of the agency, that could bias and give an out or 
something else for somebody who is going to undergo an 
administrative process.
    Mr. Chaffetz. I understand. And I think the point has been 
made, and I know you have heard it. The IG has a critical 
function. There are no ifs, ands or buts, excuses to not give 
the IG. They should have the first crack at that. They are the 
ones who are trained professionals in doing that.
    And my only message again to Mr. Sullivan and Mr. Williams, 
don't let them push you around. Don't go entering into some 
voluntary ``we are going to stand down.'' You never stand down. 
That is what I need to hear from the IG. I yield back.
    Chairman Issa. I thank the gentleman. The gentleman from 
California seeks recognition. The gentleman is recognized.
    Mr. Cardenas. Thank you, Mr. Chairman.
    Concern for national security played a significant role on 
how the John Beale case was handled. Last October, we explored 
how fears about blowing Mr. Beale's cover with the CIA allowed 
him to penetrate a fraud against the agency and the government.
    It may be hard to understand now, but at the time, EPA 
officials believed Mr. Beale did not suspect him of lying to 
them, therefore they were trying to protect his cover story, 
not prove that it was a fraud. Mr. Perciasepe, given what 
people thought at the time, what was the logic in tapping the 
OHS and deciding not to inform the IG immediately about Mr. 
Beale?
    Mr. Perciasepe. So, I think you had some of the context 
there. This obviously had been going on for 10 years through 
multiple administrations, many different assistant 
administrators, different parties. This has just been going on. 
In many respects, it is a classic confidence game, where you 
gain everybody's confidence and then you abuse that confidence. 
It is probably more complicated than that, but I am just being 
simple here.
    So when this really started to come to a head and we were 
saying, how could this be, people were raising the questions as 
has been pointed out here several times, that the sense was, 
and again, I already testified here that in hindsight I would 
have asked people to do something differently. But in this 
instance, whenever I was asked about it, and I think other 
people, it was like, there must be some human resources record-
keeping here that would say whether he is or isn't doing these 
things.
    And when most folk didn't have any records, the General 
Counsel's office asked the office that is the liaison with the 
intelligence community, the Office of Homeland Security, what 
they knew about it. And here is where we get into the situation 
I think that Mr. Sullivan brought up. If they had just tried to 
check their records to see what was going on, I don't think the 
IG would have had an issue with that. What they had an issue 
with, they went and interviewed the guy.
    Now, as it turns out, and I want to be really clear about 
that, because the fears of what could happen when you do that 
and you tip people off are real, and I think they are more 
expert in those potential problems than I am. But in this case, 
I am personally pleased in terms of the message sending and 
everything else that this employee is now spending almost three 
years in jail and has paid back not only $900,000 that we 
discovered he defrauded, but $500,000 more in calculating what 
he might have financially benefitted from having that other 
money.
    So he has paid back already to the Federal Treasury $1.4 
million and he is spending three years in jail. I wish things 
had gone smoother when we got through that, but that is the 
current situation we are in. That is the best rationale I could 
give you, which is probably not the best one in hindsight, but 
that is how I think it got into the Office of Homeland 
Security.
    Mr. Cardenas. So Mr. Perciasepe, once OHS discovered that 
Mr. Beale was not affiliated with the CIA, how long did it take 
for EPA to refer the matter to IG?
    Mr. Perciasepe. My memory is not precise on this, but I 
think they looked at it for maybe three months and then they 
turned it over to the Office of Inspector General.
    Mr. Cardenas. Mr. Sullivan, could you confirm with us, how 
long was your investigation once the IG was involved?
    Mr. Sullivan. We were informed on February 11th, 2013, and 
we immediately put a number of agents on the case. And within 
three months, three and a half months, we had a plea agreement 
with Mr. Beale and his attorney and the U.S. Attorneys office. 
So within three and a half months, we had kind of brought it to 
at least the initial conclusion. And then it went through the 
process of him, the formal plea and then the formal sentencing.
    Mr. Cardenas. Okay. So Mr. Sullivan, in your testimony you 
stated you cannot assure us that the IG is doing everything 
possible to root out other John Beales who may be at the EPA. 
Are you suggesting that there could be people masquerading as 
CIA employees currently working at the EPA?
    Mr. Sullivan. No, sir, I have no visibility on that, and I 
don't expect that would be true. But I do have a very real, 
abiding concern that the Office of Homeland Security is 
interviewing employees, collecting information on employees 
engaged in misconduct and not telling us. And that is a major 
issue for me and my staff, and a major issue for the Inspector 
General.
    Mr. Cardenas. Mr. Perciasepe, are there any valid reasons 
why the EPA would not cooperate timely in a fully and timely 
manner with the IG under their investigations?
    Mr. Perciasepe. I think we got into this, is this an 
exception, before. But I think our standard operating procedure 
is that we always do that, we always cooperate with the IG 
fully. In this case, and again I think another year in the 
future, maybe we will have a joint different view of it, but in 
this case, we have temporarily, by mutual agreement, have 
delayed completing the investigation of the issues in the 
Office of Homeland Security.
    Mr. Cardenas. I yield back the balance of my time, Mr. 
Chairman.
    Chairman Issa. Thank you. I recognize myself now.
    Three months that they knew this guy was a fraud and they 
didn't turn it over to the IG. Would you agree, Mr. Perciasepe, 
that that is three months longer than it should ever happen? 
Three months to the minute that they knew this was a mater of a 
fraudulent employee and not a national security individual?
    Mr. Perciasepe. I don't know when during that time period 
they made that revelation to themselves. But I have already 
testified that I think in hindsight, I would have recommended, 
to the extent that I would have had a role in that, to do 
something different.
    Chairman Issa. And of course, hindsight is always good, in 
hindsight we know that basically the Administrator, cabinet-
level position, makes one phone call in a secured environment 
and finds out whether somebody is in fact a clandestine agent 
that for some reason the entity who has a responsibility to 
tell them that that is their agent, because the agency head is 
to be informed, in fact would be told, no, that isn't, and we 
can verify that.
    Reading the law, you now know as the deputy that if you 
have any embedded individuals in that category, you have to be 
informed.
    Mr. Perciasepe. As I understand it, although I have to 
admit, and maybe this is my problem, I did not know that. That 
law had changed since I came back to the Federal Government. 
But as I understand it, and I will look behind me and in front 
of me here, that if that ever was the case, that the Cabinet-
level person and their general counsel are to be informed.
    Chairman Issa. Now, I understand that Mr. Sullivan and Mr. 
Williams, you can't say whether there is or isn't another Beale 
embedded. But there are people who are being paid and they are 
not working. You have recently discovered, you said like 71 
cases. You know that, in fact, bosses are falsifying documents 
so that people get paid who are not working. Is that right? You 
have enough of these examples that you clearly know, if there 
is this many, there is more, right?
    Mr. Sullivan. Well, you don't know what you don't know, Mr. 
Chairman. But we do have a number of cases in which employees 
have not shown up for work but have been paid, yes.
    Chairman Issa. So when you keep seeing that eventually what 
you see is that at least two things exist. One is, it has 
happened enough times that it probably will happen again, if it 
is not happening today. And secondly, because the Justice 
Department has declined to prosecute again and again, including 
the example of a 20-year, five years completely unable even to 
log in, no prosecution. You know that to be true.
    Mr. Sullivan. Yes, sir, unfortunately for us as 
investigators, we collect the facts presented to the U.S. 
Attorney's office and they make a decision based on our 
resources. But it is quite common to get a declination, that is 
correct, sir.
    Chairman Issa. And Mr. Perciasepe, when you have somebody 
who bonuses with taxpayer dollars their own daughter, in a way 
that was designed clearly to circumvent anyone knowing that, 
because whether she hired the employee herself or simply made 
sure that the money out of her budget got there to make a bonus 
available, and there is a decline to prosecute, do you believe 
it is your obligation to go back to Justice to ask them to 
reconsider, and did you do that?
    Mr. Perciasepe. I have no authority to go back to Justice 
and ask them to do something.
    Chairman Issa. You mean you can't say, as the number two at 
the EPA, to the number two at the Attorney General's office, 
are you guys sure you don't have a case? Is this a matter of, 
you don't have a case or that you are just too busy to deal 
with these white collar crimes? Do you have the authority to 
ask that question?
    Mr. Perciasepe. I misunderstood your question. I don't know 
what the exact thing that the IG does when they send it to the 
U.S. Attorneys. I think it is like a warrant.
    Chairman Issa. I assume it is a criminal referral.
    Mr. Sullivan. Yes, Mr. Chairman.
    Mr. Perciasepe. My answer was only, I don't have the 
authority to do a criminal referral.
    Chairman Issa. They have done a criminal referral, it has 
come back as a decline to prosecute. You have a management 
problem, which is, you have multiple people, and Ms. Heller, I 
am going to hear from you in a moment, including people with 
anger management problems. Because they are not prosecuting, it 
comes back to you. That means you have a management problem.
    The political appointees over at Department of Justice are 
supposed to be sympathetic to your management problem if crimes 
were committed and it is affecting your ability to do your job. 
Because it takes you a long time, if at all, to get rid of 
somebody who is a criminal but technically not being 
prosecuted. Isn't that the case?
    Mr. Perciasepe. I don't know what instances we have where 
somebody is a criminal and--I don't know.
    Chairman Issa. Bonusing your own daughter? Crime. Signing 
false--you know it signing five years of somebody who isn't 
working, you know they are not working, the fact is, they are 
unable to work, they should be put on disability. Claiming for 
a year that somebody, multiple years, that somebody in a 
nursing home is, in fact, telecommuting, I have deep concerns 
about telecommuting because it definitely opens up the ability 
for somebody sick, lame, lazy or dead to get paid if we have no 
checks and balances on people who sign off saying this person 
is doing work.
    So I will leave that for a moment, I will go on to the main 
event. Well, let me rephrase that.
    Ms. Heller, I said I would give you time and I want to make 
sure that I give you time. You are a victim of somebody with 
anger management problems. That entire case is sitting there 
waiting for another investigation, another IG to look into it. 
And that individual is still doing their job and you are unable 
to get back to the job, you and the other people from the 
Inspector General, that you were doing when you were assaulted, 
isn't that correct?
    Ms. Heller Drake. That is correct, sir.
    Chairman Issa. Now, you said this in your opening 
statement, you are a woman with a gun. You are somebody who is 
law enforcement trained. And this was incredibly frightening to 
you. This was something that really put you in a feeling of, 
this man could go off in the worst possible way, and it shocked 
you, is that correct?
    Ms. Heller Drake. That is correct, sir.
    Chairman Issa. And you are not easy to shock, are you?
    Mr. Heller Drake. Not at all.
    Chairman Issa. Now, the thousands of women at EPA who don't 
enjoy your level of training and preparation, including how to 
normally diffuse, who don't carry a firearm, somebody like this 
in the workplace, including his direct reports, they are still 
being potentially assaulted every day in the workplace, aren't 
they?
    Ms. Heller Drake. Yes, sir.
    Chairman Issa. How do you feel about that?
    Ms. Heller Drake. It is extremely disconcerting.
    Chairman Issa. I never want to feel like there is nothing I 
can do. So I am going to tell you that this is going to be an 
ongoing, daily part of communication with the EPA. 
Additionally, my office will be sending out, I will ask the 
ranking member to join me, to every Cabinet position an inquiry 
based on what we heard today, asking how many other 
administrative delays in which somebody who has been accused, 
apparently very validly, of inappropriate behavior, not once 
but multiple times, is still on the job.
    I know that the ranking member, if he were sitting here 
still, would agree that zero tolerance is what the President 
has promised us. It is what the Administrator, I am sure, would 
promise us. And I am going to do everything I can to keep the 
Administration focused on cleaning house, at least of people 
still being managers and in the workplace after the kind of 
thing you experienced.
    Ms. Heller Drake. Thank you.
    Chairman Issa. I am going to close, I will give all of you 
a last word.
    Deputy Administrator Perciasepe, I have a problem that 
needs to be resolved and closed. Your agency has, in fact, 
failed to comply with subpoenas. You know it, it has been a 
long time. This is your second trip back, failure to comply.
    Additionally, your process for collecting information is 
unacceptable. And I am just going to go through it briefly.
    Mr. Sullivan, if you are looking for emails, my 
understanding, Mr. Williams, you access EPA computers and you 
draw the emails you need based on key word search, is that 
correct?
    Mr. Williams. Yes, sir, it is.
    Chairman Issa. Would you ever ask the gentleman, I use that 
word loosely, that assaulted Ms. Heller, would you ever ask him 
and others to look and see if they have emails responsive to 
some inquiry into them that you are doing?
    Mr. Williams. No, sir, we would not.
    Chairman Issa. And Administrator, why is it that when we 
send you a subpoena, your procedure is self-search? You 
essentially call up the people who we're looking into and you 
ask EPA employees to self-search their emails. And by the way, 
your self-searching, if they believe that they have documents 
that are potentially responsive, rather than having your 
general counsel or your IGs or anybody else who is by 
definition not under investigation, do the search and deliver 
us the documents? Do you understand how that procedure is 
inherently open and fraught with obstruction, that an 
individual who gets to search their own emails gets to keep you 
from being culpable in obstructing, but, in fact, may very well 
be taking the documents out that we most want to have and 
deserve to have. Do you understand that?
    Mr. Perciasepe. I can see that possibility.
    Chairman Issa. Do you understand that if you do not fully 
comply with a subpoena of this committee or any committee of 
the Congress that you can and will be held in contempt?
    Mr. Perciasepe. I can't imagine a situation where we will 
not comply.
    Chairman Issa. You have not complied. Do you know when 
October was? Okay.
    Mr. Perciasepe. I am hoping just last year, right?
    Chairman Issa. Yes, just last year, although Lois Lerner's 
emails haven't been provided by Treasury, either. My patience 
has expired. I want full cooperation and discovery and delivery 
of all relevant documents, and I will be asking that you 
certify in a letter, signed letter, that you believe you have 
fully complied and that you do so within one month total. It is 
my intention to bring to this committee a contempt if that is 
not done.
    Mr. Perciasepe. Okay.
    Chairman Issa. It is necessary, because running the clock 
of, we will get you something sometime, is going on. In the 
case of Lois Lerner's emails from Treasury, either myself or a 
special prosecutor needs to have all those emails. That is 
another Cabinet position. But understand here today that the 
Speaker's willingness to work with and allow delay has expired, 
and that is why we have requests for a special prosecutor in 
the IRS case, and in Benghazi on the House Floor today, we will 
be taking the next step with a select committee.
    This branch of government's time and willingness to 
cooperate with delay and denial has expired. It is clear that 
the President you work for and the Administration you work for 
has a delay and deny capability and plan and has since the 
beginning. It is now very clear from other documents. So it is 
time for you to realize that your time is limited. I do not 
expect you to run the clock until the end of the month, or for 
a month. Because in a month from now, I will have scheduled a 
contempt. So we expect immediate cooperation. If you have any 
technical problems, please work with us. But notwithstanding a 
technical limitation, we will expect full compliance.
    And I said I would give you all a final word. I will start 
with you, Administrator.
    Mr. Perciasepe. First of all, thank you. And I understand 
what you just said. My understanding is that there are 
dialogues going on with the staff, but I will obviously go back 
and push ahead.
    Let me say in somewhat conclusion to the overall discussion 
that we have had here today, people ask me about concerns with 
management at EPA. I am the Deputy Administrator. I am always 
concerned about management at EPA. And my partner in helping me 
deal with management at EPA is the IG. And in fact, since the 
Beale occurrence happened, we have been able to dissect many 
different weaknesses that have sat in the agency for years and 
we are in the process of correcting them. Some of the things on 
time and attendance that you just talked about, we are putting 
in systems that will not enable that to go on the way it has 
been. To provide tools for the managers so that they get these 
exception reports and then they have to elevate them.
    So while we have had the policies, and I think we talked 
about this last time, I think you have very good personal 
knowledge on how systems can help managers manage better, we 
are trying to run into that as fast as we can. And we are 
trying to do it in a way, in partnership with the IG as we get 
their reviews of the different administrative procedures.
    So I think upgrading management at EPA is definitely 
something I am working personally on for the Administrator. We 
have done things already. There is more that we have to do. And 
I also want to make sure I commit to the committee here that 
the Administrator's meeting next week is designed to break the 
logjam so we can move forward on some of the issues that you 
have heard about today.
    And as soon as we can get done with the work with the 
Department of Defense, we will move expeditiously on whatever 
that discovers in terms of Special Agent Heller.
    Chairman Issa. I appreciate that. I want to make sure the 
record is clear that some of your employees, in working with 
the staff, have asserted that there may be an executive 
privilege claim in the case of documents with the White House. 
We have recently seen White House documents as to the false and 
misleading statements after Benghazi about the video that 
wasn't a factor at all, but was being led.
    It is the intent of the Speaker, clearly, that documents 
that are appropriate, even if they go to the White House, are 
discoverable, such as those. In this case, these are documents 
that you will have to assert and provide a privilege law if one 
exists. Otherwise, we expect full discovery. And we cannot 
accept, ``We may on some have executive privilege.'' Document 
by document, the President must assert executive privilege. He 
is not reluctant to do it, but we expect him to do it or we 
expect discovery.
    So I want to make it clear, working with staff is a 
discussion. Producing document by document claiming executive 
privilege is in fact something that the President has to decide 
with the Administrator.
    Ms. Heller, any closing remarks?
    Ms. Heller Drake. Sir, I don't have any closing remarks, 
except to say thank you so much for inviting me today and 
allowing me to share my experience.
    Chairman Issa. Thank you for coming here. It is always 
courageous to come as an individual and as a victim of 
workplace violence or harassment. And I appreciate it, and 
thank you for your service.
    Mr. Williams?
    Mr. Williams. Mr. Chairman, I just want to thank you for 
the opportunity to discuss our employee integrity cases, and we 
appreciate this opportunity. Thank you.
    Chairman Issa. Thank you.
    Mr. Sullivan?
    Mr. Sullivan. Mr. Chairman, I would just like to underscore 
my previous testimony that in general, our relationship with 
Administrator McCarthy and Deputy Administrator Perciasepe is 
outstanding. However, in this one area, involving the Office of 
Homeland Security it is completely dysfunctional. I want to 
underscore that we will, in fact, look forward to the meetings 
in the future.
    Bottom line is this, though, sir, we cannot negotiate away 
our authority into the IG Act, and we absolutely will insist 
that we be notified immediately of any allegation of 
misconduct.
    Chairman Issa. I appreciate that, and I will close by 
saying, the ranking member has been working on an ex parte 
basis to try to resolve it, and obviously it didn't work before 
this. My intention is, of course to be inclusive of the ranking 
member, but I will be talking to SIGI, which has a coordination 
obligation. Because it is my opinion that very clearly, and you 
are right, Mr. Sullivan, an IG cannot negotiate away or defer 
on that which is the independent responsibility. And an 
administrator asking for a stand-down has at least the whiff, 
the air of a failure to respect the independence of the IG.
    A day or a week is not uncommon. People can certainly go 
work on other things. But this has gone on long enough that it 
now represents a real question about the integrity of that 
investigation that has been on hiatus. So I will be talking to 
SIGI later today. I will talk to the ranking member. But this 
is an ongoing interest of this committee that every day that 
goes by we will be asking key staff to ask you, has it been 
resolved. And I expect that at least there will be a, this is 
what we did today or this is what we will do tomorrow.
    So I want to thank you. This is not an easy hearing. Some 
even questioned the title. But I think the title reflected at 
least a portion of what is, in fact, an agency that we want to 
stay active and engaged with on a number of issues in order to 
do our job of oversight and make sure that the systems you want 
to put into place are put into place in a timely fashion.
    I want to thank all the witnesses, and we stand adjourned.
    [Whereupon, at 12:18 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC] [TIFF OMITTED] T9593.024

[GRAPHIC] [TIFF OMITTED] T9593.025

[GRAPHIC] [TIFF OMITTED] T9593.026

[GRAPHIC] [TIFF OMITTED] T9593.027

[GRAPHIC] [TIFF OMITTED] T9593.028

[GRAPHIC] [TIFF OMITTED] T9593.029

[GRAPHIC] [TIFF OMITTED] T9593.030

[GRAPHIC] [TIFF OMITTED] T9593.031

[GRAPHIC] [TIFF OMITTED] T9593.032

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
